 PROCEDURES USED BY THE OFFICE OF
 JUVENILE JUSTICE AND DELINQUENCY
PREVENTION TO AWARD DISCRETIONARY
    GRANTS IN FISCAL YEAR 2007

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 09-24
               April 2009
 PROCEDURES USED BY THE OFFICE OF JUVENILE JUSTICE
      AND DELINQUENCY PREVENTION TO AWARD
     DISCRETIONARY GRANTS IN FISCAL YEAR 2007

                             EXECUTIVE SUMMARY

      The Office of Juvenile Justice and Delinquency Prevention (OJJDP),
which is part of the Office of Justice Programs (OJP) in the Department of
Justice (DOJ), coordinates federal efforts to combat juvenile delinquency in
part by awarding grants to public and private organizations. In 2002,
President Bush nominated and the U.S. Senate confirmed J. Robert Flores to
lead OJJDP as its Administrator.

      In January 2008, a youth services trade magazine and website began
publishing a series of articles alleging that Administrator Flores improperly
awarded fiscal year (FY) 2007 grants. 1 The articles raised three examples of
alleged improper award recommendations. First, Flores recommended an
award to the World Golf Foundation’s First Tee Initiative (World Golf), whose
honorary chair is former President George H. W. Bush. Flores also
recommended that the Best Friends Foundation, a non-profit organization
led by Elayne Bennett, the wife of William Bennett, a former cabinet official
under Presidents Reagan and George H. W. Bush, receive an OJJDP grant.
Third, Flores recommended an award to Victory Outreach, a faith-based
organization that had hired a former official with the White House’s Office of
Faith-Based and Community Initiatives. The articles also cited internal
OJJDP records showing that these organizations, as well as several others,
received OJJDP awards even though peer reviewers rated their proposals
much lower than proposals from other organizations that did not receive
awards. 2

       1
         Boyle, Patrick, “For Juvenile Justice, A Panel of One,” Youth Today, January 1,
2008, http://www.youthtoday.org/publication/article.cfm?article_id=949 (accessed May 22,
2008). One article detailed that Flores did not pay for a round of golf played with World
Golf Foundation officials. The article further noted that Flores, his wife, and another OJJDP
staff member attended a Best Friends Foundation fundraiser – which reportedly cost
attendees $500-a-plate – for free. The articles also cited evidence of meetings between
Flores and Victory Outreach representatives following a request of an official with the DOJ
Task Force for Faith-Based and Community Initiatives.
       2
          OJJDP’s competitive award process typically subjects grant applications to a peer
review where independent subject-matter experts assess the quality of proposals according
to established criteria. Each grant proposal receives a score and is ranked according to
these scores. However, peer review results are only one of the criteria used to make
decisions about grant funding, and the Assistant Attorney General for OJP and the OJJDP
Administrator have discretion to make awards to organizations regardless of peer review
results.

                                              i
      In response to these allegations, on June 19, 2008, Flores testified
before the House of Representatives Committee on Oversight and
Government Reform (House Oversight Committee). Flores said that as
OJJDP Administrator he was not strictly bound to award grants to the
applicants ranked highest in the peer review process. Flores also stated,
“While some may disagree with my [award] decisions, they were made in
accordance with the law, within Department rules, and in good faith to
address the needs of our children who find themselves in the juvenile justice
system or at risk of contact with it.”

OIG Audit Approach

        The Department of Justice Office of the Inspector General (OIG)
conducted this audit to review OJP’s and OJJDP’s policies and procedures for
soliciting, assessing, and awarding $113 million in discretionary grants
during fiscal year (FY) 2007. 3 In view of the allegation that Flores made
improper grant awards to non-profit organizations, we focused our review on
OJJDP grants awarded to non-profit organizations. 4 For FY 2007, OJJDP
awarded such funds under the following six programs.




       3
         Discretionary grants are awards that are not based on pre-determined formulas or
other statutory requirements. OJP may award discretionary grants to state, local, and tribal
governments, and public and private agencies.
       4
          The Juvenile Justice and Delinquency Prevention Act provides OJJDP with
categories of grant funds. Our audit reviewed OJJDP’s grant awards under Part E of the
Juvenile Justice and Delinquency Prevention Act and grants for mentoring initiatives. OJJDP
receives Part E funds to support efforts to develop, test, and demonstrate juvenile justice
programs.



                                             ii
            OJJDP DISCRETIONARY PROGRAMS REVIEWED
             1. National Juvenile Justice Programs*
             2. Prevention and Intervention Program (Prevention and
                Intervention)
             3. High-Risk Youth Offender Reentry and Family Strengthening
                Initiative Program (Reentry)
             4. Project Safe Childhood Program (Project Safe Childhood)
             5. Substance Abuse Prevention and Intervention Program
                (Substance Abuse)
             6. Mentoring Initiatives (Mentoring)*

         Source: OJJDP
         Notes: OJJDP issued two different National Juvenile Justice Programs and
                 Mentoring announcements: one for invited organizations and another for
                 organizations to apply for competitive awards.

      In conducting this audit, we interviewed over 40 OJP officials and
employees, including OJJDP Administrator Flores and his executive
management team. We also interviewed former Assistant Attorney General
for OJP Regina Schofield regarding her role in OJJDP’s FY 2007 grant award
process, and former Associate Attorney General Kevin O’Connor to discuss
DOJ’s efforts to enhance the transparency of OJP’s grant award process.

      We also reviewed OJP’s practices for finalizing OJJDP award decisions.
For FY 2007, the OJJDP Administrator formally recommended award
selections to the Assistant Attorney General for OJP, who then approved
awards collectively by program. We evaluated the award recommendations
and selections for two specific grant programs – the National Juvenile Justice
Programs and Mentoring Initiatives (Mentoring) – because OJP had invited
certain organizations to receive grants for these programs while other
organizations had to submit proposals to compete for funds.

       We also reviewed documents pertaining to grant award procedures,
including correspondence between OJP and the DOJ’s Justice Management
Division. We met with officials from Grants.gov, a federal grant
clearinghouse, to obtain background on the procedures used by federal
offices announcing grant opportunities.

     Appendix 1 contains a more detailed description of our audit objective,
scope, and methodology.




                                          iii
Results in Brief

        Congress provided OJJDP nearly $330 million for FY 2007 operations
and awards, with about $113 million reserved for grants to juvenile justice
initiatives and mentoring programs. Unlike previous years, in FY 2007
Congress did not “earmark,” or legislatively specify, the recipients of OJJDP
awards. 5 Congress instead required that each executive agency develop and
submit a “spend plan” that detailed how funds would be used. In April 2007,
Congress approved DOJ’s spend plan, which allocated OJJDP funds to
broadly defined programs. The spend plan did not specify how OJP or OJJDP
would choose award recipients.

      We found that OJP did not have sufficient policies in place at the time
to govern how it or its bureaus and program offices should select award
recipients for non-earmarked funds. The absence of earmarks in FY 2007,
coupled with a lack of applicable grant selection rules, gave OJP and OJJDP
considerable latitude in determining the organizations that should receive
awards.

       In February and March 2007, Administrator Flores recommended
placing nearly all of the $113 million reserved for juvenile justice and
mentoring programs up for competition – a proposal that Assistant Attorney
General Schofield ultimately rejected. Instead, Schofield selected 17
organizations to receive non-competitive, or “invitational,” grants totaling
$74 million, or 65 percent of the total funds allocated in FY 2007 to juvenile
justice and mentoring initiatives. Schofield told us that she decided to use
invitational awards to ensure that continuing and deserving programs would
receive funds. Schofield further asserted that she and her staff only gave
invitational awards to organizations that had demonstrated a strong record
of performance and results. However, OJP could not provide us with any
documents showing that it made such merit-based assessments for these
invitational grants. Because OJP lacked such evidence, we could not
determine if the awarding of these invitational grants was appropriate or
whether it was the best allocation of OJJDP funds.

      Once OJP made these invitational awards, less than $40 million of the
$113 million remained for OJJDP to award via six competitive solicitation
announcements. OJJDP waited until after Congress approved OJP’s spend
plan in April 2007 before drafting many of its competitive juvenile justice


      5
         Congress uses earmarks to identify specific grant recipients and the amount of
funds each should receive. Earmarks can be included either in legislation or accompanying
committee reports. In FY 2006, Congress earmarked all of OJP’s discretionary funds.



                                            iv
and mentoring solicitations. 6 Consequently, OJJDP did not announce several
competitive grant programs until May 2007, which was more than halfway
through the fiscal year. The late program announcements reduced the
amount of time organizations had to apply for grant funds. In fact,
solicitations initially remained open for only an average of 17 days. We
believe that this abbreviated application period did not provide sufficient
time for many prospective applicants to complete all the steps necessary to
submit a grant application.

      After receiving complaints from applicants about the short deadlines,
OJP and OJJDP twice extended application deadlines. The first extension
was given to organizations that could prove they had unforeseen technical
problems submitting applications. The second extension was provided to
any organization that claimed a problem with the application process.
Although OJP announced the first deadline extension publicly on its websites,
OJJDP informed organizations of the second deadline extension only if the
applicant reported problems.

       We found that time constraints also adversely affected the peer review
process OJJDP used to rate grant applications. Given that OJP needed to
finalize awards quickly, OJJDP shortened the time period peer reviewers had
to assess applications and removed several standard steps from its peer
review process entirely. For example, OJJDP instructed its contractor to not
hold orientation calls, a step where peer reviewers receive instructions on
how to assess applications. OJJDP also instructed its contractor to refrain
from holding consensus meetings. These meetings are normally held to
provide reviewers the opportunity to discuss the rationale behind their
assessments and scores with one another and OJJDP employees. We believe
that both of these steps are critical to ensuring that objective criteria are
applied uniformly to all the applicants.

      Between May and July 2007 Administrator Flores reviewed the peer
review results and made award recommendations to OJP Assistant Attorney
General Schofield. Although Administrator Flores stated that he considered
peer review scores in evaluating the proposals, he said he did not use peer
review scores as the sole basis to select applicants for grant awards. We
found that Flores recommended awards to several organizations whose
proposals received scores that were lower than those submitted by other
organizations that did not receive award recommendations.



       6
         Solicitations notify potential applicants of new grant programs, and provide
guidance to applicants on how OJP program offices will evaluate and select proposals for
funding.


                                             v
      Although Flores prepared memoranda for the approval of the Assistant
Attorney General to outline his award recommendations, our audit found
that OJP and OJJDP did not maintain any documents to show why specific
award decisions were made. While former Assistant Attorney General
Schofield and OJJDP Administrator Flores provided to us reasons for their
award selections, we found no contemporaneous documentation that either
corroborated the reasons for their decisions or identified whether the World
Golf Foundation, the Best Friend Foundation, or Victory Outreach received
awards for subjective or personal reasons. Flores told us that he did not
have personal ties with any official or representative with organizations that
he recommended for awards. Further, Flores stated that his meetings and
interactions with officials from these groups did not have any impact on his
award decisions.

      We recognize that OJP decision makers did not necessarily violate
grant-making rules by recommending and approving awards to organizations
that did not receive the highest peer review scores. However, because
OJJDP devoted considerable resources to support a peer review process to
assess competitive grant proposals, we believe that OJP and OJJDP decision
makers should have justified and documented the rationale for award
recommendations that deviated significantly from peer review results.

      We make nine recommendations in this report to enhance the
transparency and integrity of OJP’s and OJJDP’s discretionary grant award
process.

      This audit report contains detailed information on the full results of our
review of OJP’s and OJJDP’s discretionary grant making process. The
remaining sections of this Executive Summary discuss in more detail our
audit findings.

OJJDP Spend Plan and Award Announcements

      In February 2007 Congress funded more than $113 million for OJJDP
grants under the Part E funding category of the Juvenile Justice and
Delinquency Prevention Act and for Juvenile Mentoring programs. 7 While a
provision within the funding resolution expressly eliminated earmarks,
another provision required the DOJ – as well as other executive agencies –
to submit to Congress a “spending, expenditure, or operating plan,”
commonly referred to as a spend plan, detailing how it would use these
funds.
       7
         DOJ initially received FY 2007 funding via a series of continuing resolutions instead
of a formal appropriations bill.



                                              vi
        The Office of Management and Budget (OMB) subsequently issued a
 memorandum directing executive agencies to disregard any earmark-like
 clauses contained in congressional committee reports or other documents
 when deciding how to allocate discretionary funds. 8 Instead, the
 memorandum instructed agencies to select their competitive awards using
 transparent and merit-based determinations of grant proposals. In light of
 this instruction, Administrator Flores submitted a preliminary spend plan to
 Assistant Attorney General Schofield that proposed to allocate nearly all of
 OJJDP’s discretionary funds to competitive grant programs. However, we
 found that Schofield ultimately rejected that proposal and invited the
 following 17 organizations to receive OJJDP grants on a non-competitive
 basis.
                       OJJDP INVITATIONAL AWARDS
                                                                         Award
                                                           Solicitation Amount
No.                    Invited Organization                  Name         ($)
 1    Boys and Girls Clubs of America                          NJJP     40,000,000
 2    FirstPic, Inc.                                           NJJP     20,000,000
 3    Center for Neighborhood Enterprise                       NJJP        740,000
 4    Wireless Foundation                                      NJJP        250,000
 5    Cal Ripken, Sr. Foundation                               NJJP      3,000,000
 6    Girl Scouts Beyond Bars                                  NJJP        750,000
 7    National Association of Police Athletic League           NJJP        750,000
 8    Milton S. Eisenhower Foundation                          NJJP      3,000,000
 9    National DARE                                            NJJP        650,000
10    National Football Foundation                             NJJP        500,000
11    National Council of Juvenile and Family Court Judges     NJJP        800,000
12    Father Flanagan’s Boys and Girls Town Home               NJJP      1,000,000
13    Big Brothers Big Sisters of America                   Mentoring    2,000,000
14    Girl Scout Council of the Nation’s Capital            Mentoring      200,000
15    Girl’s Inc.                                           Mentoring      250,000
16    Girl’s Inc. of Huntsville, Alabama                    Mentoring      250,000
17    Team Focus, Inc.                                      Mentoring      249,640
                      TOTAL RECEIVED BY INVITED ORGANIZATIONS $74,389,640
Source: OJP

 Because these organizations received invitational awards totaling $74
 million, less than $40 million remained available for competitive awards from
 the $113 million approved for OJJDP’s Part E and Juvenile Mentoring
 programs.




        8
            OMB Memorandum No. 07-10 (February 15, 2007)



                                          vii
       Schofield told us she decided to award these grants non-competitively
for two reasons. First, she said she believed that some of the invitational
awards would provide the funding necessary to continue programs that had
received support under prior-year earmarks. Second, she said that some
invitations stemmed from considerable input her office received from
Congress, the White House, and DOJ asking that certain organizations
receive OJJDP grants. For example, Schofield told us that officials with the
Office of the Attorney General requested that OJP support a youth program
proposed by the National Football Foundation. We also asked Schofield who
from outside the Department had provided this “input.” She said she could
not remember who specifically had contacted OJP to request funding for
specific applicants, but that members of Congress and their staff probably
called her staff to support specific organizations within their respective
districts and jurisdictions.

      OJP could not provide documents showing how Schofield or her staff
decided which organizations should receive invitational awards. In light of
the OMB instruction to allocate awards according to merit-based
determinations or an otherwise transparent competitive process, we believe
that OJP should have documented the reasons why it chose to award over
$74 million in OJJDP grants non-competitively. Because OJP lacked such
evidence, it could not demonstrate that it made appropriate, merit-based
decisions in awarding noncompetitive grants with OJJDP funds. We
therefore recommend that OJP implement a policy to ensure that award
decision makers, including the Assistant Attorney General for OJP and the
OJJDP Administrator, maintain records supporting their selections or
approvals of future invitational awards.

      Moreover, we found that not only did OJP lack evidence showing why
the Assistant Attorney General made invitational awards, the manner by
which OJP announced OJJDP award winners obscured how each organization
actually received its grant. For example, under the National Juvenile Justice
and Mentoring Initiatives programs, OJP did not identify organizations that
received invitational grants in its award announcements. Instead, award
announcements listed both invitational and competitive awards under a
single category. Such collective award announcements obscured the
markedly different ways recipients actually obtained the awards and left the
incorrect impression that all of the announced grants were awarded on a
competitive basis.




                                     viii
      To improve the transparency of OJJDP’s award process, we
recommend that OJP specify how each OJJDP award recipient obtained its
award, whether by earmark or other congressional request, invitation,
continuation, or open competition when announcing program award winners,
including on its press releases and websites.

Solicitations and Deadlines

       In the grant award process, OJJDP develops and announces
solicitations to notify potential applicants of new grant programs.
Solicitations also provide guidance to applicants on how OJJDP will evaluate
and select proposals for funding. OJJDP uses Grants.gov, a grant application
clearinghouse run by the Department of Health and Human Services, to post
competitive solicitations and receive proposals.

       OJP encourages its bureaus and program offices to begin developing
grant solicitations as soon as possible after the beginning of each fiscal year,
in part because it takes time for new applicants to complete the Grants.gov
registration process. New applicants also have to complete a registration
process before they can receive application forms and apply for awards. In
fact, some OJP granting authorities announce solicitations before Congress
appropriates grant funds with a notice that awards are contingent upon the
availability of funds.

      We found that OJJDP did not begin working on its FY 2007 Part E and
Juvenile Mentoring solicitations until April 2007, about 7 months after the
beginning of the fiscal year, and about 2 months after Congress provided
funding to OJJDP. 9

Developing Solicitations

       Administrator Flores told us that notwithstanding OJP’s encouragement
to its grant offices to announce solicitations as early as possible, he did not
advocate early solicitation development for two reasons. First, he said that
current grantees might inadvertently receive early notice that a solicitation is
being developed, which would give them an unfair time advantage over
other potential applicants in preparing applications. Second, he said that if
OJJDP announced a solicitation contingent on funding, many faith-based and
community organizations would spend their limited resources developing
applications for solicitations that may never be funded.

      9
          OJP and OJJDP officials told us that they believed the February 2007 funding was
very late, and it required them to work quickly to ensure that awards were made before the
end of the fiscal year.



                                            ix
      However, because solicitations for several discretionary grant
programs were not prepared until after Congress approved the DOJ spend
plan in April 2007, OJJDP did not finalize and post its Part E and Juvenile
Mentoring solicitations until May 2007. Consequently, OJJDP could only offer
an average of just 17 days for organizations to apply for Part E and Juvenile
Mentoring grants.

Extending Deadlines

      Abbreviated application timelines and technical problems with the
online submission process during the FY 2007 grant application period
generated complaints from many OJJDP applicants. Consequently, OJP
posted a notice on its website directing applicants that encountered
submission problems to provide proof of when they registered and applied
for an award. OJP officials told us that only those organizations that could
show they met registration and application deadlines were allowed to bypass
Grants.gov and submit an application directly to OJP. While 98 different
applicants claimed problems applying for Part E and Juvenile Mentoring
awards, only 54 provided sufficient evidence to allow them to resubmit their
applications directly to OJP. OJJDP informed the remaining 44 applicants
that their submissions could not be accepted because they had not proved
they registered or applied on time.

       In our judgment, the proposal deadlines OJJDP initially established for
its Part E and Juvenile Mentoring solicitations, which averaged 17 days, did
not provide sufficient time for organizations to register with Grants.gov and
apply for awards. A senior OJJDP manager suggested that a standard
application timeframe would provide new applicants adequate time to
register with Grants.gov and apply for awards. Given the processing and
technical problems identified by this review, we recommend that OJP ensure
that OJJDP: (1) improve its solicitation development process so that it can
post solicitations with deadlines that provide applicants sufficient time to
apply for awards; and (2) establish a minimum length of time that
solicitations remain open for applicants to submit proposals for competitive
awards.

      We found that even after OJJDP assessed proof of registration and
application dates submitted by various applicants under the OJP notice,
Administrator Flores expressed concern that technical issues with Grants.gov
prevented some applicants from submitting grant proposals. After receiving
input from OJJDP staff, Flores decided to allow applicants claiming problems
with Grants.gov to submit grant proposals after the deadline, regardless of
whether they could prove that they had registered and applied on time.
Flores said he made this decision without consulting OJP leadership because


                                      x
he was not willing to have organizations “disqualified” from applying simply
because they could not navigate the Grants.gov website. Flores said he also
suspected that many faith-based and community organizations were among
those that had application problems, and he did not want those
organizations disqualified. He said participation by those organizations in
the grant program was a “Presidential priority.” 10 Flores subsequently
directed OJJDP staff to inform organizations claiming problems with
submitting their applications that they could submit their application directly
to OJJDP for consideration. However, OJJDP did not publicly announce this
application extension on its website.

      OJJDP received 61 additional applications after Flores decided to allow
late submissions from any organization claiming a problem with Grants.gov.
Yet, Flores’s deadline extension was contrary to OJP policy and was not
announced publicly. We recommend that OJP require OJJDP to document
specific reasons for extending any future solicitation deadline and announce
such extensions publicly so that all potential applicants may be made aware
of changed deadlines.

Peer Reviews

      Peer reviewers serve as independent subject-matter experts who
review a subset of grant applications to determine if they are well written,
make sense, comply with solicitation criteria, and clearly demonstrate that
the applicant can carry out the proposed work. Peer reviewers typically rank
applications based on the peer review scores. However, the peer review
process does not compare the value of the project proposed in one
application against another. Although OJP award decision makers said they
reviewed the peer review results before making awards, the Assistant
Attorney General for OJP and the OJJDP Administrator each have authority
to make awards that are not bound by peer review results.

      For FY 2007 Part E and Juvenile Mentoring programs, external
consultants served as peer reviewers of applications received under OJJDP’s
Mentoring Initiatives, Reentry, Prevention and Intervention, and Substance
Abuse programs. In addition, OJJDP staff conducted the peer review of
National Juvenile Justice Programs and Project Safe Childhood proposals.




       10
          Executive Order 13279 (2002) directed heads of other federal agencies that
provide services to children and others in need to encourage the participation of faith-based
and community organizations in receiving federal financial assistance (E.O. 13279).



                                             xi
External Peer Reviews

      We found that OJJDP paid a contractor more than $500,000 to oversee
and conduct peer reviews of proposals received under several FY 2007
competitive solicitations. Because time was short, OJJDP instructed its
contractor to curtail parts of the typical peer review process in an effort to
meet OJP grant award deadlines. Our examination of how the contractor
conducted peer reviews identified the following deficiencies in that process:

      •   OJJDP did not ask its contractor to conduct orientation calls with
          peer reviewers. Orientation calls have been a normal part of the
          peer review process and are important to ensure that all peer
          reviewers have a similar understanding of solicitation requirements
          before rating individual proposals. Our review found that many of
          the peer reviewers were newly appointed and thus could have
          benefited from an orientation call to instruct them how to review
          and rate proposals.

      •   OJJDP instructed its contractor to convene peer review panels
          composed of two rather than three peer reviewers. OJJDP
          personnel told us that three peer reviewers usually serve on each
          panel, and that their scores are averaged to arrive at a panel score
          for each proposal. When panels are comprised of only two peer
          reviewers, a single high or low score has a greater impact on the
          average, which may disproportionably affect an application’s
          ranking.

      •   OJJDP did not require, and its contractor did not conduct, consensus
          calls between peer review panelists. We found that consensus calls
          offer peer reviewers (1) an opportunity to discuss their scores,
          comments, and methodology with one another and an OJJDP
          representative, and (2) a chance to adjust or correct widely
          disparate scores, if appropriate

      Therefore, conducting orientation calls and consensus meetings, and
having three peer reviewers on each panel helps ensure that application
assessments are objective, consistently scored, and not unduly affected by a
single reviewer. These steps also enhance the reliability of the peer review
process. We found that OJJDP’s instruction to its external peer review
contractor not to follow these usual procedures because of the short
timeframes undermined the potential value of its FY 2007 peer review
process, even though the process cost OJJDP nearly a half-million dollars.




                                      xii
       Beginning in FY 2008, OJP mandated that its bureaus and program
offices use the same peer review contractor it had procured via a
component-wide contract. According to OJP officials, OJJDP no longer hires
its own contractors for external peer reviews. The OJP component-wide
contract requires the external peer review contractor to: (1) conduct
orientation calls; (2) have three-person peer review panels; and (3) perform
consensus calls with peer reviewers and bureau or program office
representatives.

Internal Peer Reviews

      OJJDP staff conducted the peer reviews of FY 2007 National Juvenile
Justice Programs and Project Safe Childhood proposals. Similar to the
contractor peer reviewer process, peer review panels consisted of two rather
than three employees. Unlike the contractor peer reviewer, however, OJJDP
managers instructed staff to perform consensus calls to discuss their
assessments and scores.

       We interviewed OJJDP staff who served as the peer reviewers for
National Juvenile Justice Programs grant applications. Several OJJDP staff
told us that they did not believe they were adequately prepared to conduct
peer reviews of the proposals because they did not receive enough time to
assess proposals or guidance on their role as peer reviewers. In addition,
although OJJDP instructed staff to hold consensus calls, we identified at least
one panel that did not discuss its scores and results. Due to these
deficiencies, we recommend that OJP work with OJJDP to implement
stronger and more consistent peer review protocols.

Basic Minimum Requirements

       Our audit also assessed ways in which OJJDP could improve the overall
efficiency of OJJDP’s grant review process. OJJDP officials said that before
conducting peer reviews they check every grant proposal they receive
against basic minimum requirements, such as page length, font size, and
margins. Basic minimum requirement checks remove proposals from
consideration before they are subject to peer review. OJJDP managers told
us that basic minimum requirements screenings routinely check for such
non-substantive issues in an effort to provide peer reviewers with a
consistent standard to assess the applications.




                                      xiii
       However, even though OJJDP conducts basic minimum requirement
checks on received proposals, some proposals that do not meet subject
matter or other standard solicitation elements are routinely sent to peer
reviewers. For example, Flores told us that basic minimum requirement
screenings did not exclude proposals asking for continued Part E funding
even though solicitations were to fund new projects and initiatives. As a
result, some applications ended up being peer reviewed even though they
should have been disqualified because they did not meet funding
requirements. In our view, OJJDP should exclude such proposals from the
expensive and time-consuming peer review process. We recommend that
OJP require OJJDP to augment its basic minimum requirements checks to
identify and exclude applications that do not meet the purpose and scope of
the solicitation. OJJDP should not waste valuable resources conducting peer
review of proposals that clearly do not meet program requirements.

Award Recommendations and Selections

       The Assistant Attorney General for OJP and the OJJDP Administrator
share the authority to award OJJDP discretionary funds. In FY 2007,
Administrator Flores prepared recommendation memoranda for each OJJDP
grant program. The memoranda summarized his views on the proposals and
suggested award amounts. Attached to each memorandum was a list of
peer review results. Flores then forwarded these memoranda to Assistant
Attorney General Schofield for review. After Schofield approved award
recommendations, OJP began processing the financial paperwork and
finalizing award announcements. 11

       To determine whether Flores improperly awarded grants to non-profit
organizations with which he was alleged to have had contacts, we reviewed
the peer review scores and award selections for two grant programs that
solicited award proposals from non-profit organizations: (1) the National
Juvenile Justice Programs, and (2) Mentoring Initiatives. 12 We determined
that the proposals that received grant awards did not receive the highest
peer review scores. As shown below, only 2 of the 11 National Juvenile
Justice Programs award recipients had proposals with scores that peer
reviewers ranked in the top 20, while 6 of the 9 Mentoring award recipients
had proposals that received top 20 peer review scores.


       11
         Flores’s award recommendation memorandum for the National Juvenile Justice
Programs is included as Appendix 6.
       12
          We reviewed the solicitations for these two programs because the National
Juvenile Justice Program proposals were peer reviewed by OJJDP staff, while a contractor
hired by OJJDP coordinated the peer reviews for Mentoring proposals.


                                           xiv
  PEER REVIEW RANKINGS OF NJJP AND MENTORING PROPOSALS
                                                                      Peer
                          Award Recipient                            Review
                  (Sorted By Peer Review Rank)                        Rank
   NJJP Recipients (104 total applicants)
    1. National Juvenile Court Services Association                     7
    2. Council of Juvenile Correctional Administrators, Inc.            8
    3. Latino Coalition for Faith & Community Initiatives              26
    4. Enough is Enough                                                33
    5. Fund for the City of New York – Center for Court Innovation     39
    6. Victory Outreach Special Services                               42
    7. ASPIRA Association                                              44
    8. World Golf Foundation                                           47
    9. Native American Children’s Alliance                             48
    10. National Council of Juvenile and Family Court Judges           51
    11. Best Friends Foundation                                        53
   Mentoring Recipients (237 total applicants)
    1. Virginia Mentoring Partnership                                   1
    2. Partnership for a Healthy Scott County, Inc.                     2
    3. Pittsburgh Leadership Foundation                                 6
    4. National Congress of American Indians                            9
    5. Committed Partners for Youth                                    15
    6. National Organization of Concerned Black Men, Inc.              19
    7. People for People, Inc.                                         42
    8. Plumas Rural Services                                           43
    9. Messiah College - Harrisburg Institute                          84
  Source: OJJDP

      Flores told us that he selected these awards based on proposal
summaries provided by OJJDP staff and his own subsequent review of many
proposals. Regarding these Administrator-level assessments, Flores said he
looked at a number of variables, including whether: (1) a proposal’s budget
was realistic, (2) the proposal included tangible performance outcomes,
(3) he thought the proposal required OJJDP support to succeed, and (4) the
proposal helped to achieve a Presidential initiative. Flores also said he
consulted peer review scores and comments when he chose these proposals
for award recommendations.




                                      xv
      The following details our findings regarding the allegations made
against Flores concerning certain grant proposals and our analysis of how
Flores told us he used peer review scores in selecting these awards.

Allegations of Improper Award Recommendations

       In view of the allegations that some of Flores’s award decisions may
have been based on personal contacts and ties, we reviewed the testimony
Flores provided to the House Oversight Committee on June 19, 2008, and
requested from Flores any documentation showing why he recommended
the World Golf Foundation, the Best Friends Foundation, and Victory
Outreach for awards. During our interviews, Flores reiterated the reasons
for his award recommendations, but told us he did not maintain any record
to support his decisions. Flores also stated that his personal contacts and
meetings with organization representatives played no part in his award
decisions.

      World Golf Foundation

       In response to congressional inquiries on the grant awarded to World
Golf, Flores stated that this organization deserved an award in part because
it ran a nationwide program that had been assessed by a series of studies as
effective at teaching children important life skills, such as honesty and
commitment. Flores said that he was criticized for awarding this grant
because some did not realize that the World Golf program used golf as an
instruction tool instead of trying to “make golfers of youth participants.”

      Flores’s testimony further revealed that while attending the First Tee’s
2006 annual meeting as a guest speaker, he played a round of golf with
World Golf officials. The meeting’s agenda included a golf outing on the last
day, and Flores stated that World Golf officials asked him to participate.
Flores told the House Oversight Committee that he tried to pay for the
round, but that World Golf officials told him they would send him an invoice
later. Flores stated that he followed up with the invoice request and paid




                                      xvi
$159 in golf fees the day before he testified to the House Oversight
Committee. 13

       We questioned Flores on whether his contacts with World Golf led him
to recommend that this organization receive an award. Flores denied any
connection between his World Golf award recommendation and what he said
was limited contacts with this group. Flores stated that World Golf received
an award recommendation because its proposed program had demonstrated
success at applying golf as “a hook” to capture the interest and involvement
of at-risk youth that may not have participated in other OJJDP programs.

       Best Friends Foundation

       Flores also testified that he recommended an award to the Best
Friends Foundation because he believed the group did “a tremendous job” at
keeping girls in school and away from drugs. Flores stated that during his
tenure as OJJDP Administrator, he wanted to focus on programs for girls
because the arrest rate for young females appeared to be rising while the
arrest rate for young males was declining. Flores stated he recommended
an award to the Best Friends Foundation in Washington, D.C., because its
program reported a 100-percent high-school graduation rate for its
participants. According to Flores, his critics were upset with this award
because the Best Friends Foundation’s youth programs are abstinence-
based.




       13
            The OIG Investigations Division conducted an investigation into various
allegations concerning Flores, including the allegation that Flores did not pay for the round
of golf he played with World Golf officials. The investigation concluded that in playing golf
and failing to pay the fees until the eve of his congressional testimony, Flores violated
federal ethics regulations prohibiting government employees from accepting gifts in excess
of $20 from a prohibited source. A prohibited source includes persons and entities that do
business or seek to do business with the employee’s agency. World Golf’s First Tee
Initiative was an OJJDP grantee at the time Flores participated in the golf outing. Although
Flores ultimately reimbursed the World Golf Foundation for the cost of the round of golf, he
did not make this payment until more than 2 years after the event and almost a year after
he had taken action that benefitted the Foundation by recommending it for a grant award in
FY 2007. While the investigation could not conclude that the round of golf with World Golf
officials affected Flores’s decision to recommend World Golf for an award, the OIG concluded
that his actions violated federal ethics rules relating to the acceptance of gifts.



                                            xvii
       Media outlets also reported that Flores had multiple contacts with Best
Friends officials, including attending a $500-a-plate fundraising event for the
organization in April 2007 before grant selections were finalized. 14
Documents we reviewed showed that the Best Friends Foundation invited
Flores and his staff to attend its fundraiser and waived the $500-donation
requirement. Because of this waiver, Flores treated the invitation as a
potential gift and requested permission to attend the event from OJP’s Office
of General Counsel. The General Counsel’s office approved Flores’s and his
staff’s attendance, stating that the fundraiser appeared to be a “widely
attended gathering” of over 100 people and therefore was an exception to
the gift rules. The General Counsel’s office also stated that Flores’s
attendance at the fundraiser would “advance the government’s interest” in a
way that outweighed an impression that his attendance would “improperly
influence [OJJDP’s] decision process.”

      We asked Flores whether his meetings and attendance at Best Friends
Foundation fundraisers led him to recommend that this organization receive
an award. Flores told us that his contacts with Best Friends Foundation were
similar to those he had with many other organizations as OJJDP
Administrator. Flores also said that his contacts with Best Friends
Foundation did not play a role in providing this organization an OJJDP award.
Flores told us that, as a policy decision, he wanted to provide an award to
address the relationship between teenage pregnancy and high school
dropout rates. He said that since Best Friends Foundation based its National
Juvenile Justice Programs proposal on an initiative that had documented
success at keeping teenage girls in school and from getting pregnant, he
recommended the proposal for an award.

      Victory Outreach

       We also asked Flores why he recommended Victory Outreach, a non-
profit faith-based organization, for an OJJDP award. According to the initial
allegation, Victory Outreach hired a contractor that was once an associate
director with the White House’s Office on Faith-Based and Community
Initiatives. Documents obtained by the House Oversight Committee showed
that an official with the DOJ’s Task Force on Faith-Based Initiatives sent an
e-mail in March 2007 to OJJDP recommending that Flores or his staff meet
with Victory Outreach’s contractor to discuss its work and future funding
opportunities.



      14
         Boyle, Patrick, “The Case Against Flores,” Youth Today, June 19, 2008,
http://www.youthtoday.org/publication/article.cfm?article_id=1954 (accessed June 23,
2008).


                                          xviii
      Flores said that his meeting with Victory Outreach’s contractor was not
out of the ordinary. Flores emphasized that he met with representatives
from all sorts of juvenile delinquency organizations that applied for OJJDP
awards. Flores denied that the referral from the DOJ’s Task Force on Faith-
Based Initiatives played any role in his recommending that Victory Outreach
receive an award. Instead, Flores said the organization’s proposal goals
aligned well with DOJ and Presidential priorities because, as a faith-based
organization, Victory Outreach’s program targeted young people most at risk
in being involved in violent gang activity.

Flores’s Use of Peer Review Scores and Results

      To assess whether Flores’s personal interactions with World Golf, the
Best Friends Foundation, or Victory Outreach may have led to these groups
receiving National Juvenile Justice Programs awards, we also asked Flores if
he used peer review scores in choosing grant proposals to fund. Flores told
us that he chose to not recommend grants based only on their peer review
score. Flores advanced four reasons why he made this decision:

  •   Flores said that individual peer reviewers only evaluate seven to eight
      applications each, which is only a fraction of the total number of
      applications received under each program announcement. He said
      that the peer review recommendations present the Administrator with
      a snapshot of the strengths and weaknesses of each application.
      Flores stated that as Administrator, he is best suited to select awards
      because he can see the “larger picture” of the proposal universe.


  •   Flores told us that peer reviewers do not consider whether a proposal
      could receive funding under another, more specific program
      announcement. As suggested by its title, OJJDP intended to use the
      National Juvenile Justice Programs to support national-scope youth
      service programs. Flores told us that he did not want to use this
      program’s money to support initiatives that could be funded by other
      OJJDP solicitations. For example, if a National Juvenile Justice
      Programs application was for substance abuse efforts, the applicant
      could still compete for funding under OJJDP’s Substance Abuse
      program. As a result, Flores said that he used his authority as
      Administrator to deny funding such narrowly focused proposals from
      the broad-scoped National Juvenile Justice Programs pool even if the
      proposals received high peer review rankings.




                                     xix
  •   Flores stated that peer reviewers did not necessarily consider
      important Presidential initiatives when assessing applications. Flores
      cited the Presidential initiative to encourage faith-based and
      community organizations to apply for federal awards. 15 Flores said he
      believed it was important to ensure that faith-based initiatives
      received OJJDP support. Therefore, he recommended Victory
      Outreach’s proposal, which was ranked 42 of 104, for a National
      Juvenile Justice Programs award, and Messiah College’s proposal,
      which was ranked 84 of 237, for a Mentoring Initiatives award, in part
      because each ranked among the highest proposals put forth by faith-
      based organizations.

  •   Flores also told us that peer review results did not consider the unique
      nature of the FY 2007 funding process in that there were no earmarks
      and any organization that received awards may not be able to receive
      another award or continuing support in subsequent fiscal years. When
      making his award recommendations, Flores told us he anticipated
      enhanced earmark activity in subsequent fiscal years and that peer
      reviewers did not consider these potential funding constraints when
      evaluating proposals. Flores said that, as a result, he excluded
      proposals if they risked requiring OJJDP support for more than one
      fiscal year, even those ranked high by peer reviewers.

       We recognize that the Juvenile Justice and Delinquency Prevention Act
did not require either the OJJDP Administrator or the Assistant Attorney
General to make award decisions based on peer review scores. In addition,
our audit did not identify any other law or regulation that required peer
review results to be the sole determinant of grant awards. Yet, because OJP
and OJJDP devote considerable resources to conduct peer reviews of grant
proposals, we believe that they should ensure that the peer review process
is transparent and a significant factor in making award decisions. Because
neither OJP nor OJJDP maintained documents showing why award decisions
were made, we could not corroborate Flores’s stated reasons for his award
recommendations or disprove the allegations that subjective or personal
factors improperly influenced his decisions.




      15
           E.O. 13279 (2002)



                                      xx
      In part because of the scrutiny received by OJJDP’s FY 2007 grant
award process, Associate Attorney General Kevin O’Connor issued a
memorandum in May 2008 directing OJP to document all discretionary
funding recommendations and future award decisions. This new policy
addresses many of our concerns regarding the transparency of the OJJDP
competitive award process. When OJP and OJJDP officials select lower-
ranking proposals over those that received higher peer review scores, they
now need to document their contemporaneous reasons for deviating from
peer review rankings.

Conclusion and Recommendations

       Our audit revealed weaknesses in virtually every major step of OJJDP’s
FY 2007 grant award process. In the absence of sufficient guidelines for how
to review and select awards and document award decisions for non-
earmarked funds, neither OJP nor OJJDP were adequately prepared to
disburse nearly $113 million reserved for juvenile delinquency initiatives and
mentoring program grants. Of these funds, Assistant Attorney General
Schofield directed that approximately $74 million be awarded non-
competitively to organizations she approved to receive such grants.
However, neither Schofield nor other OJP officials could provide adequate
justifications for why Schofield selected those organizations.

       The decision to use approximately $74 million for invitational grants
left less than $40 million for OJJDP to award through six different
competitive program announcements. OJJDP did not prepare draft
solicitations for these six programs until after Congress formally approved
OJP’s spend plan in April 2007. As a result, after a rushed solicitation
drafting process, OJJDP published its solicitations well into the second half of
the fiscal year, in late May 2007. We believe this left insufficient time for
grant applicants, peer reviews, and final decision-making.

      OJP required its bureaus and program offices to finalize award
decisions by the end of July 2007. To meet this requirement, OJJDP reduced
the amount of time organizations could apply for awards to an average of
just 17 days. Many organizations could not register and complete their
OJJDP applications within such a short timeframe, which led to some
applicants complaining about the application process to OJP officials.
Although OJP instructed applicants to document submission problems, OJJDP
unilaterally extended application deadlines and notified only those applicants
that contacted OJJDP of the extension. We believe that the inconsistent
notice of the deadline extension undermined the transparency of the
application process both within OJJDP and among organizations applying for
OJJDP awards because the grant extensions were not announced publicly.


                                      xxi
      Moreover, OJJDP directed its contractors and employees to abbreviate
important steps in its peer review process in an effort to expedite grant
proposal reviews. Peer review panels had only two reviewers instead of
three. Having at least three people on each panel more effectively mitigates
the impact of subjectivity in the peer review process. In addition, peer
reviewers did not hold orientation calls at the outset of the process, or
conduct consensus meetings at the end of it. We believe that by foregoing
these steps, OJJDP diminished the reliability and value of the peer review
results. Considering the substantial resources OJJDP devoted to its peer
review process, we believe it should have conducted peer reviews that
included these important steps to ensure objective and consistent scores and
rankings among different peer review panels.

        In our view, Administrator Flores and Assistant Attorney General
Schofield did not adequately document the reasons for their respective
award recommendations and decisions. Administrator Flores told us that
although he consulted peer review rankings in making award
recommendations, he also considered other issues including Presidential
initiatives and the availability of other solicitation opportunities when
developing his final award recommendations. Schofield could not offer many
details about how she selected certain organizations to receive non-
competitive, invitational awards other than to state that she selected
worthwhile organizations for these awards after receiving DOJ, White House,
and congressional input. Although Flores and Schofield had the authority to
recommend and decide discretionary awards, we are concerned about the
lack of support or evidence showing the reasons for their award invitations,
recommendations, and selections. We recommend that, in the future, OJP
and OJJDP maintain documentation to support such award decisions. These
documents should also show the considerations that went into selecting
organizations that receive such grants.

       During the period of this audit, the DOJ and OJP implemented
important reforms to the grant making process that we believe will improve
its transparency and integrity. For example, OJP has taken steps to
implement guidelines issued by the Associate Attorney General that require
the OJJDP Administrator and the Assistant Attorney General for OJP to justify
and document discretionary award decisions. According to an OJP official,
these rules have been issued to each OJP bureau and program office,
including OJJDP, and decisions to select awards proposals rated low by peer
reviews now require the approval of the Assistant Attorney General for OJP.




                                    xxii
       Nevertheless, our report identified several areas that we believe still
require improvement. For example, OJP should better document how
invitational awards are made and ensure that OJJDP provides an adequate
time period for organizations to apply for its discretionary awards. Further,
OJJDP should document the reasons for and publicly announce changes in
application deadlines.

      Our audit resulted in nine recommendations to enhance the
transparency and integrity of OJJDP’s grant making process. For example,
we recommend that OJP implement policies to ensure that OJJDP:

   •   Establish a minimum length of time that solicitations remain open for
       applicants to submit proposals for competitive awards.

   •   Enhance its solicitation development procedures by drafting and
       approving solicitations throughout the fiscal year so that solicitations
       allow applicants a reasonable amount of time to apply for competitive
       awards.

   •   Document the reasons for extending solicitation deadlines and
       announce any deadline extension publicly so that all potential
       applicants may be informed of changed deadlines.

   •   Implement peer review protocols for its employees and contractors to
       follow that: (1) require formal orientation calls so that employees are
       aware of solicitation requirements before conducting peer reviews;
       (2) include consensus calls to discuss and mediate disparate peer
       review results; and (3) require panels to include at least three peer
       reviewers.

   •   Augment and use its basic minimum requirements checklist to identify
       and exclude applications that fail to meet the purpose and scope of the
       solicitation.




                                      xxiii
This page intentionally left blank.




               xxiv
 PROCEDURES USED BY THE OFFICE OF JUVENILE JUSTICE
      AND DELINQUENCY PREVENTION TO AWARD
     DISCRETIONARY GRANTS IN FISCAL YEAR 2007

                                 TABLE OF CONTENTS

CHAPTER ONE: INTRODUCTION ........................................................1
Background ......................................................................................... 2
OIG Audit Objective and Approach .......................................................... 6
Organization of this Report .................................................................... 7

CHAPTER TWO: DEVELOPING A SPEND PLAN....................................8
Spend Plan Development ....................................................................... 9
  OJJDP’s Preliminary Spend Plan .......................................................... 9
  OJP’s Spend Plan ............................................................................ 12
Concerns About Invitational Award Justifications and Announcements ....... 15
Conclusion ......................................................................................... 16
Recommendations .............................................................................. 17

CHAPTER THREE: ANNOUNCING AND APPLYING FOR AWARDS ......18
Developing Solicitations....................................................................... 20
Competitive Solicitation Deadlines ........................................................ 23
   Grants.gov Registration Process ....................................................... 23
   Technical Problems and Late Applications .......................................... 24
OJP Efforts to Handle Late Applications.................................................. 26
OJJDP Decision to Extend OJP’s Deadline ............................................... 27
OJP Solicitation Template Revision ........................................................ 28
Conclusion ......................................................................................... 29
Recommendations .............................................................................. 30

CHAPTER FOUR: PEER REVIEWS .....................................................31
External Peer Reviews ......................................................................... 31
   Juvenile Justice Resource Center ...................................................... 32
   Expiration of the Juvenile Justice Resource Center Agreement.............. 38
   OJP’s Consolidated External Peer Review Contract .............................. 38
Internal Peer Reviews ......................................................................... 38
Basic Minimum Requirements Screening ................................................ 40
Conclusion ......................................................................................... 41
Recommendations .............................................................................. 42

CHAPTER FIVE: RECOMMENDING AND SELECTING AWARDS...........43
Awards Not Based Strictly On Peer Review Results.................................. 43
Allegations of Improper Award Recommendations................................... 45
Chapter 5 (Continued)
   World Golf Foundation..................................................................... 45
   Best Friends Foundation .................................................................. 46
   Victory Outreach ............................................................................ 48
Role of Peer Review Scores in Recommending OJJDP Awards ................... 48
   Individual Peer Reviewers Do Not Assess All Applications..................... 49
   Peer Reviewers Do Not Consider Other OJJDP Solicitation
       Opportunities ............................................................................ 49
   Administrator Authority Supersedes Peer Review Scores ..................... 50
   Peer Reviewers Do Not Assess Whether Proposals Would Require
   Continued OJJDP Support ................................................................ 51
Lack of Adequate Evidence for Award Recommendations ......................... 51
Award Recommendation Memoranda..................................................... 52
Associate Attorney General Policy to Document Award Decisions .............. 55
Conclusion ......................................................................................... 56
Recommendation ................................................................................ 57

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS .......58

STATEMENT ON INTERNAL CONTROLS .............................................59

ACRONYMS ......................................................................................60

APPENDIX 1: OBJECTIVE, SCOPE, AND METHODOLOGY .................61

APPENDIX 2: SCHEDULE OF DOLLAR-RELATED FINDINGS .............64

APPENDIX 3: FY 2007 OJJDP GRANT SOLICITATIONS ...................65

APPENDIX 4: GRANTS.GOV REGISTRATION PROCESS ....................67

APPENDIX 5: APPLICATIONS SUBMITTED AFTER OJP
            JULY 2, 2007, DEADLINE EXTENSION .......................68

APPENDIX 6: NATIONAL JUVENILE JUSTICE PROGRAMS
            AWARD RECOMMENDATION MEMORANDUM .............70

APPENDIX 7: ASSOCIATE ATTORNEY GENERAL AWARD
            DOCUMENTATION POLICY ........................................76

APPENDIX 8: OJP RESPONSE TO THE DRAFT REPORT ....................78

APPENDIX 9: OIG ANALYSIS AND SUMMARY OF ACTIONS
            NECESSARY TO CLOSE THE AUDIT REPORT ...............82
                                    CHAPTER ONE
                                   INTRODUCTION

      The Office of Juvenile Justice and Delinquency Prevention (OJJDP),
which is part of the Office of Justice Programs (OJP) in the Department of
Justice (DOJ), coordinates federal efforts to combat juvenile delinquency in
part by awarding grants to public and private organizations. In 2002,
President Bush nominated and the U.S. Senate confirmed J. Robert Flores to
lead OJJDP as its Administrator.

       In January 2008, Youth Today, a youth services trade magazine and
website, began publishing a series of articles alleging that Administrator
Flores improperly awarded fiscal year (FY) 2007 grants. 16 The articles raised
three examples of potential improper award recommendations. First, Flores
recommended an award to the World Golf Foundation’s First Tee Initiative
(World Golf), whose honorary chair is former President George H. W. Bush.
Flores also recommended that the Best Friends Foundation, a non-profit
organization led by Elayne Bennett, the wife of William Bennett, a former
cabinet official under Presidents Reagan and George H. W. Bush, receive an
OJJDP grant. Third, Flores recommended an award to Victory Outreach, a
faith-based organization that had hired a former official with the White
House’s Office of Faith-Based and Community Initiatives. The Youth Today
articles also cited internal OJJDP records showing that these organizations,
as well as several others, received OJJDP awards even though peer
reviewers rated their proposals much lower than proposals from other
organizations that did not receive awards. 17




       16
          Boyle, Patrick, “For Juvenile Justice, A Panel of One,” Youth Today, January 1,
2008, http://www.youthtoday.org/publication/article.cfm?article_id=949 (accessed May 22,
2008). One article stated that Flores did not pay for a round of golf played with World Golf
Foundation officials. The article further stated that Flores, his wife, and another OJJDP staff
member attended a Best Friends Foundation fundraiser – which reportedly cost attendees
$500-a-plate – for free. The articles also cited evidence of meetings between Flores and
Victory Outreach representatives following a request of an official with the DOJ Task Force
for Faith-Based and Community Initiatives.
       17
           OJJDP’s competitive award process typically subjects grant applications to a peer
review where independent subject-matter experts assess the quality of proposals according
to established criteria. Each grant proposal receives a score and is ranked according to
these scores. However, peer review results are only one of the criteria used to make
decisions about grant funding, and the Assistant Attorney General for OJP and the OJJDP
Administrator have discretion to make awards to organizations regardless of peer review
results.
     In response to these allegations, the House of Representatives
Committee on Oversight and Government Reform (House Oversight
Committee) initiated an inquiry into OJJDP’s grant-making procedures. The
House Oversight Committee issued a memorandum critical of OJJDP grant-
making procedures and Flores’s award selections. Specifically, the
memorandum noted that OJJDP did not award grants to organizations whose
proposals received the highest peer review scores for OJJDP’s National
Juvenile Justice Programs announcement.

      We undertook this audit to assess the way Office of Justice Programs
(OJP) and OJJDP officials solicited, assessed, and awarded FY 2007 grants
for the National Juvenile Justice Programs and similarly funded OJJDP
programs.

Background

     As shown by Exhibit 1-1, OJJDP is one of the seven bureaus and
program offices within the Department of Justice’s OJP.

        EXHIBIT 1-1: OJP BUREAUS AND PROGRAM OFFICES

                             Office of the Assistant Attorney General




                                                          Community
         Bureau of             Bureau of                                          National
                                                           Capacity
           Justice              Justice                                          Institute of
                                                         Development
         Assistance            Statistics                                          Justice
                                                            Office




                   Office of Sex
                     Offender                                        Office of
                    Sentencing,             Office for               Juvenile
                    Monitoring,             Victims of             Justice and
                  Apprehending,               Crime                Delinquency
                   Registering,                                     Prevention
                   and Tracking



      Source: OJP




                                                2
     OJP is headed by an Assistant Attorney General who develops and
implements OJP policies and coordinates the work of its seven bureaus and
program offices. 18 From June 2005 to September 2007, Regina Schofield
served as OJP’s Assistant Attorney General.

      The Juvenile Justice and Delinquency Prevention Act established OJJDP
in 1974. 19 OJJDP is headed by a Presidentially appointed, Senate confirmed
Administrator who is responsible for coordinating federal efforts and awards
grants and contracts to reduce juvenile delinquency.

       Exhibit 1-2 shows the organization of OJJDP, which seeks to support
states and communities in their efforts to protect public safety, hold juvenile
offenders accountable, and provide treatment and rehabilitative services
tailored to the needs of juveniles and their families. Flores became the
OJJDP Administrator in 2002 and continued to serve in that capacity until
January 2009.




      18
           Pub. L. No. 109-162 (2006)
      19
           42 U.S.C. § 5611 et seq. (2006)


                                             3
              EXHIBIT 1-2: OJJDP ORGANIZATIONAL CHART




    Source: OJJDP

      Congress provides OJJDP funds to award grants to state and local
programs for delinquency prevention programs under Title V of the Juvenile
Justice and Delinquency Prevention Act, as amended. 20 In addition, the
Juvenile Justice and Delinquency Prevention Act provides OJJDP with
additional funding categories, each having a distinct purpose. Exhibit 1-3
presents a summary of Juvenile Justice and Delinquency Prevention Act
categories and their purpose.




     20
          42 U.S.C. § 5783 (2002)


                                     4
             EXHIBIT 1-3: JUVENILE JUSTICE AND DELINQUENCY
                PREVENTION ACT FUNDING CATEGORIES
              Category                          Purpose of Funding
                                   Provides funds to the Administrator to
  Part A: Coordination of Federal
                                   coordinate federal juvenile justice efforts and
  Efforts. See 42 U.S.C. § 5614
                                   support the Coordinating Council on Juvenile
  (2006)
                                   Justice and Delinquency Prevention.
                                   State and local governments may receive
                                   formula awards to develop education,
  Part B: Federal Assistance for
                                   training, research, prevention, diversion,
  State and Local Programs. See
                                   treatment, and rehabilitation programs in the
  42 U.S.C. § 5631 (2006)
                                   area of juvenile delinquency to improve the
                                   juvenile justice system.
                                   Provided to state governments to support
  Part C: Juvenile Delinquency
                                   projects designed to prevent juvenile
  Prevention Block Grant
                                   delinquency, including treatment, education
  Program. See 42 U.S.C. § 5651
                                   or projects that expand the use of probation
  (2006)
                                   officers.
                                   Public and private organizations or
  Part D: Research; Evaluation;
                                   individuals can receive funds to support
  Technical Assistance; Training.
                                   programs to research or evaluate juvenile
  See 42 U.S.C. § 5661 (2006)
                                   justice issues.
                                   State, local, and tribal governments and
  Part E: Developing, Testing, and public and private organizations can be
  Demonstrating Promising New      awarded monies to support projects that
  Initiatives and Programs. See    develop, test, or demonstrate promising
  42 U.S.C. § 5665 (2006)          initiatives and programs to prevent, control,
                                   or reduce juvenile delinquency.
  Source: OIG analysis of the Juvenile Justice and Delinquency Prevention Act, as amended

        For FY 2007, Congress did not fund any Part D programs but
specifically provided OJJDP with money to support Juvenile Mentoring
initiatives. 21

       OJJDP has established different grant programs under each category
that align with the authorized funding objective. Private organizations were
eligible to receive FY 2007 funds under OJJDP’s Part E and Juvenile
Mentoring programs. 22

       21
          The 2002 reauthorization to the Juvenile Justice and Delinquency Prevention Act
rescinded the “Part G: Juvenile Mentoring” program funding category. Nevertheless,
Congress still provides OJJDP with Mentoring Program funds, but not under the “Part G”
funding category since Part G no longer exists.
       22
         Part E funds are those authorized by Part E of the 1974 Juvenile Justice and
Delinquency Prevention Act to develop, test, and demonstrate promising new initiatives and
programs.

                                            5
OIG Audit Objective and Approach

        The Department of Justice Office of the Inspector General (OIG)
conducted this audit to review the OJP and OJJDP policies and procedures for
soliciting, assessing, and awarding $113 million in Part E and Juvenile
Mentoring Program discretionary grant funds during FY 2007. 23 Exhibit 1-4
lists the Part E and Juvenile Mentoring programs that OJJDP funded in FY
2007.

    EXHIBIT 1-4: PART E AND JUVENILE MENTORING PROGRAMS
            Program Name                           Program Objectives
                                  Competitive Programs
Prevention and Intervention
                                      To foster new community-level juvenile justice and
Program (Prevention and
                                      child protection projects
Intervention)
                                      To: (1) facilitate transitioning juvenile offenders to
High-Risk Youth Offender Reentry      their families and communities following their
and Family Strengthening Initiatives confinement, and (2) foster innovations that focus on
Program (Reentry)                     family economic success and community support
                                      systems
Project Safe Childhood Program        To support organizations that combat the
(Project Safe Childhood)              technological exploitation of children
Substance Abuse Prevention and        To foster new juvenile justice and child protection-
Intervention Program (Substance       related practices at the local, state, and tribal
Abuse)                                government levels
                                      To: (1) build “protective factors” to combat juvenile
National Juvenile Justice Programs
                                      delinquency, (2) reduce child victimization, and
(Competitive)
                                      (3) improve the juvenile justice system
                                      To support new approaches or develop initiatives to
Mentoring Initiatives* (Mentoring)
                                      strengthen and expand existing mentoring programs
                      Programs Open Only to Invited Organizations
Merit-Based National Juvenile         To provide funding to 12 specific organizations that
Justice Programs (Invitational)       OJP invited to apply for awards under this program
Mentoring Initiatives* (Mentoring     To provide funding to five organizations invited to
Invitational)                         apply for awards under this program
Source: OJJDP
Note: OJJDP supported all the above programs with Part E funding, except for the
        Mentoring Initiatives programs that OJJDP supported with Juvenile Mentoring funds.




       23
           Discretionary grants are awards made to state and local governments, Indian
tribes, and public and private agencies that are not based on predetermined formulas or
other statutory requirements. OJP awarded discretionary grants competitively or by
invitation. Congress also may earmark, or legislatively direct, OJP’s discretionary grant
funding.


                                             6
      As shown in Exhibit 1-4, organizations received awards under the
National Juvenile Justice and Mentoring Initiatives (Mentoring) programs in
two different ways: either competitively or by receiving invitational awards
from OJP.

       As part of this review we interviewed 42 OJP officials, including
Administrator Flores and members of his executive management team. We
also interviewed former Assistant Attorney General Schofield regarding her
role in OJJDP’s FY 2007 grant-making process and former Associate Attorney
General Kevin O’Connor regarding DOJ’s efforts to enhance grant-making
transparency at OJP and other components that award competitive grants.

      In addition, we reviewed thousands of pages of documents pertaining
to grant award procedures. To understand award procedures used by other
federal grant making offices, we also met with officials from Grants.gov, a
federal grant clearinghouse administered by the U.S. Department of Health
and Human Services for executive agencies that award grants.

Organization of this Report

      This report contains five chapters that discuss OJJDP’s grant-making
process chronologically. Chapter Two explains the FY 2007 budget process
in which Congress provided OJJDP with over $113 million in Part E and
Juvenile Mentoring program funds. Chapter Two also discusses Assistant
Attorney General Schofield’s decision to invite some organizations to apply
for OJJDP grants through a non-competitive process.

      Chapter Three describes how OJJDP developed solicitations for its FY
2007 discretionary grants and details how organizations applied for OJJDP
funds. Chapter Three also discusses OJJDP’s decision to extend solicitation
deadlines when some organizations had problems submitting applications on
time.

      Chapter Four details how OJJDP conducted peer reviews of proposals
received under competitive solicitations, including the National Juvenile
Justice Programs.

      Chapter Five describes the process used by Schofield and Flores to
select grant recipients.




                                      7
                              CHAPTER TWO
                         DEVELOPING A SPEND PLAN


      During the FY 2007 budget cycle, Congress provided funds to
executive agencies through a series of continuing resolutions. 24 A joint
resolution enacted on February 15, 2007, provided many executive agencies
with funding for the remainder of the fiscal year and explicitly eliminated
congressional earmarks. 25 Instead, the resolution required each agency to
submit a “spending, expenditure, or operating plan,” commonly referred to
as a “spend plan,” for approval by the House and Senate Committees on
Appropriations. 26 Once the joint resolution was enacted, the Office of
Management and Budget (OMB) issued a memorandum directing executive
agencies not to obligate or award funds based on earmark-like specifications
contained in any congressional committee reports. In addition, the OMB
memorandum instructed each agency to fund activities based on authorized
and transparent criteria and use merit-based determinations to select
awards that achieve program objectives. 27

      Because DOJ was one of the executive agencies covered by the joint
resolution, the Department’s Justice Management Division (JMD)
consolidated various DOJ component-level spend plans into a single DOJ
spend plan. Assistant Attorney General Schofield told us that OJP had only
about 2 weeks to develop a spend plan before JMD’s March 2007 deadline.
Schofield asked each bureau and program office to compile a preliminary
spend plan proposal for her approval.

      In contrast to FY 2007 funding, in FY 2006 Congress had earmarked all
of OJP’s discretionary funding to 1,345 recipients. Due to the high number
of earmarks designated in prior FYs, we found that OJP had not established
rules or policies regarding how it or its bureaus and program offices must
select award recipients for non-earmarked funds. Therefore, according to a
senior OJP official, the lack of earmarks in FY 2007 presented a unique

      24
         Congress uses continuing resolutions to fund government operations in the
absence of an enacted appropriations bill.
      25
           Pub. L. No. 110-005 (2007), § 112. Earmarks are funds directly provided by
Congress for certain projects or programs. Since appropriation bills have generally
designated earmark recipients, as well as the amount of funds each should receive, earmark
recipients need not compete for funding through a merit-based allocation process. See
Office of Management and Budget (OMB) Memorandum No. 07-09 (January 25, 2007).
      26
           Id., § 113.
      27
           OMB Memorandum No. 07-10 (February 15, 2007)

                                            8
challenge for OJP regarding how to award a large amount of unobligated
funds before the end of the fiscal year.

       In March 2007, JMD received OJP’s spend plan, combined it with those
received from other DOJ components, and delivered a consolidated DOJ
spend plan to Congress. On April 16, 2007, Congress approved the
consolidated DOJ spend plan. While OJP’s portion of the plan detailed the
total amount of money it would apply to each OJJDP funding category it did
not list the specific recipients of grant funds or the process by which OJP
would make discretionary awards.

Spend Plan Development

        The February 15, 2007, resolution provided almost $330 million for
OJJDP to support both its mandated and discretionary juvenile justice
initiatives, including Part E and Juvenile Mentoring projects. A senior OJJDP
manager indicated that OJJDP had not recently received nor anticipated
receiving such a large pool of non-earmarked funds.

OJJDP’s Preliminary Spend Plan

      Administrator Flores told us that in developing OJJDP’s spend plan he
wanted OJJDP to follow closely the tenets of the OMB Memorandum and
therefore award discretionary grants based on a competitive process that
assess the merits of funding requests. As shown by Exhibit 2-1, OJJDP’s
preliminary spend plan did not invite organizations to receive non-
competitive funding.




                                      9
          EXHIBIT 2-1: PRELIMINARY OJJDP AWARD PROPOSAL
                      Category and Description                           Amount ($)
Coordination of Federal Efforts. To support the operations of the
Coordinating Council on Juvenile Justice and Delinquency Prevention
                                                                             703,000
and other activities under Part A of the Juvenile Justice and
Delinquency Prevention Act.
State Formula Grants. Part B of the Juvenile Justice and
Delinquency Prevention Act provides formula awards to states to
                                                                          78,900,000
improve juvenile detention, pilot at-risk youth intervention strategies,
and facilitate program evaluations and data collection.
Developing, Testing, and Demonstrating Promising New
Initiatives. Flores called for a series of programs under Part E of the  104,672,000
Juvenile Justice and Delinquency Prevention Act.
   1. Safe Neighborhoods
      Solicitations included (1) an expansion of the Attorney
      General’s anti-gang initiative in 30 communities, and (2) an         11,000,000
      effort to identify how best to coordinate various OJJDP
      substance abuse strategies in 10 communities.
   2. Child Exploitation
      The proposal outlined two initiatives, one for funding programs
      to address the causes of child abuse and another to fund              6,600,000
      prevention, intervention, and education efforts to address
      Internet safety.
   3. Juvenile Delinquency Prevention Program
      Under this program, funding would be focused on building
                                                                           17,600,000
      novel programs such as sports-based initiatives and after-
      school programs.
   4. Management and Administration
      Funding for OJJDP staff and contractors to support the Part E         5,400,000
      initiatives.
   5. Unobligated*                                                         64,072,000
Juvenile Mentoring Programs.**                                             9,800,000
Delinquency Prevention Programs. The proposal applied Title V
funds to support new and ongoing efforts, such as tribal youth, gang      64,169,000
reduction, and underage drinking prevention programs.
Other Statutory Funding and Block Grants.                                 80,161,000
                                                                 TOTAL $338,405,000
Source: OIG analysis of OJJDP files
Notes:
*
        Flores’s proposal did not include OJJDP’s plans for over $64 million in funding.
**
        A summary describing Juvenile Mentoring Programs support was not included in the
        preliminary OJJDP spend plan proposal.




                                            10
      Under Flores’s preliminary spend plan, Part E awards were to be based
on competition, and Flores wrote, “It is hoped that such competitions will
also allow organizations, programs, and research efforts that did not
previously receive funding to do so this year.” Flores’s plan also stated that
prior award recipients would have the same opportunity to compete for
funds as new applicants.

      Assistant Attorney General Schofield met with Flores and his executive
team on February 23, 2007, to discuss how to handle OJJDP’s funding. At
this meeting, Schofield discussed making invitational awards to certain
organizations, some of which had received earmark grants in prior years.
We discussed with Schofield why she wanted to invite organizations to
receive non-competitive awards. Schofield explained that some of the
invited organizations required continued funding to carry out programs
supported under prior-year earmarks.

      In addition, Schofield told us that although Congress provided funding
without earmarks, she and her staff had received calls from Capitol Hill, the
White House, and from within DOJ requesting awards for certain
organizations. For example, Schofield said that officials with the Office of
the Attorney General requested that OJP support a youth program proposed
by the National Football Foundation. 28

       During our interview, we asked Schofield who outside of the
Department provided input on award selections. Schofield told us that she
did not remember which specific White House or congressional officials
asked her to ensure that certain organizations received awards, but she said
that members of Congress and their staff probably called her office to
support specific organizations within their respective districts and
jurisdictions. Schofield said that she decided that these external funding
requests, coupled with her concerns about supporting certain ongoing
programs she believed to be important and worthwhile, outweighed Flores’s
plan to award all of OJJDP’s funds through a competitive process.




         28
              The Attorney General has final authority over all OJP awards. 24 U.S.C. § 3715
(2006)


                                               11
OJP’s Spend Plan

       On February 28, 2007, Schofield sent an e-mail to Flores stating that
OJJDP’s preliminary proposal was not acceptable because it did not include
invitational awards to certain organizations. Schofield and her staff then
developed a separate spend plan for OJJDP’s Part E and Juvenile Mentoring
funds totaling approximately $113 million in discretionary funds. Of these
funds, $74 million were awarded by invitation, and just under $40 million
were awarded under six different competitive solicitations.

      Part E Programs

       The funding categories presented by Schofield’s approved OJP spend
plan generally aligned with the total dollar amounts provided by Flores’s
proposal. However, OJP’s proposal for Part E funds called for two broad sub-
categories of funds: $80 million for “National Programs” and over $24
million for “Discretionary and Competitive Programs.”

       National Programs. OJP’s proposed spend plan reported to Congress
that it would use $80 million for national programs to support efforts to
reduce juvenile delinquency and crime, protect children from sexual
exploitation and abuse, and improve the juvenile justice system. Assistant
Attorney General Schofield ultimately invited 12 organizations to receive a
total of $71,440,000, 89 percent of the $80 million allocated to the National
Programs subcategory. The remaining $8,560,000 was set aside to support
proposals under an open National Juvenile Justice Programs competitive
solicitation. Exhibit 2-2 lists the organizations that received invitational Part
E National Programs awards.




                                       12
           EXHIBIT 2-2: FY 2007 NJJP INVITATIONAL AWARDS
                                                                      Total FY 2006
                                                      Amount              Part E
                                                    Funded in FY        Earmark
                                                       2007              Amount
               Organization Name                        ($)                 ($)
   Boys and Girls Clubs of America                    40,000,000                  0*
   FirstPic, Inc.                                     20,000,000                 n/a
   Center for Neighborhood Enterprise                    740,000                 n/a
   Wireless Foundation                                   250,000                 n/a
   Cal Ripken, Sr. Foundation                          3,000,000           2,961,684
   Girl Scouts Beyond Bars                               750,000           2,073,179
   National Association of Police Athletic
                                                           750,000                 n/a
   League
   Milton S. Eisenhower Foundation                       3,000,000          4,743,630
   National DARE                                           650,000                n/a
   National Football Foundation                            500,000                n/a
   National Council of Juvenile and Family
                                                           800,000          1,727,649
   Court Judges
   Father Flanagan’s Boys and Girls Town
                                                         1,000,000          1,480,842
   Home
                                       TOTALS        $71,440,000        $12,986,984
   Source: OJP
   Note: Prior to FY 2007, the Boys and Girls Clubs of America received Edward Byrne
   Memorial Justice Assistance (Byrne) grant funds from the Bureau of Justice Assistance
   (BJA). However, Schofield told us that the Attorney General reserved discretionary
   Byrne funds to support other crime reduction initiatives, and therefore no Byrne funds
   were available for the group’s FY 2007 funding. Therefore, OJP used OJJDP’s Part E
   National Program funds to support the group. Byrne funds are not managed by OJJDP.

       As shown by Exhibit 2-2, the Boys and Girls Clubs of America, which
had previously obtained annual funding under the Economic Espionage Act of
1996, received $40 million of the $71,440,000 allocated to invited
organizations. 29 Among the 11 other invitees, 5 had received Part E funds
through FY 2006 earmarks totaling approximately $13 million. Although OJP
budget documents referred to these awards as “merit-based,” the decision
to invite these 12 organizations to receive awards meant that they did not
have to compete with other groups for Part E funds.




      29
          42 U.S.C. 13751 (2005) once directed annual appropriations to the Boys and Girls
Clubs of America until it was repealed by Title XI of Pub. L. No. 109-162 (2006).

                                           13
       Discretionary and Competitive Programs. The OJP spend plan also
allocated $24,600,000 in Part E funds to four competitive programs for
different juvenile justice initiatives, as shown by Exhibit 2-3.

                  EXHIBIT 2-3: PART E COMPETITIVE
                           AWARD PROGRAMS
                                          Funds Allocated
                Part E Program Name             ($)
        Prevention and Intervention              9,600,000
                *
        Reentry                                  5,000,000
        Project Safe Childhood                   5,000,000
        Substance Abuse                          5,000,000
                                    TOTAL     $24,600,000
       Source: OJP
       Note: OJP allocated a total of $15 million to the Reentry program, $5 million
             from Part E and $10 million from the BJA’s Byrne grant program.

     Juvenile Mentoring Program

     In addition to the Part E programs, Congress authorized funds to
support OJJDP’s Juvenile Mentoring program. OJP allocated a total of
$8,450,000 for a Juvenile Mentoring program entitled Mentoring Initiatives
(Mentoring). Assistant Attorney General Schofield invited the following five
organizations to receive Mentoring funds totaling approximately $3 million
under the program.

    EXHIBIT 2-4: FY 2007 MENTORING INVITATIONAL AWARDS
                                                                 Amount
                                                               Funded in FY
                       Organization Name                         2007 ($)
        Big Brothers Big Sisters of America                        2,000,000
        Girl Scout Council of the Nation’s Capital                   200,000
        Girl’s Inc.                                                  250,000
        Girl’s Inc. of Huntsville, Alabama                           250,000
        Team Focus, Inc.                                             249,640
                                                 TOTALS          $2,949,640
        Source: OJP

     Because approximately $3 million was made available for invitational
Mentoring awards, only about $5.5 million remained available for
competitive Mentoring awards.




                                          14
Concerns About Invitational Award Justifications and
Announcements

      We questioned Schofield about whether she believed it was
appropriate for OJP to issue invitational awards to organizations in view of
OMB’s instruction to make merit-based determinations in selecting award
recipients. Schofield told us that she believed she complied with OMB
guidelines because she and her staff were careful to select organizations
with successful or worthwhile programs for non-competitive awards.
Schofield also said she used her authority to provide non-competitive awards
to some prior-year recipients whose programs were ongoing and required
continued DOJ support.

      However, OJP could not provide any documents to show whether
Schofield or her staff made the OMB-required merit-based determinations or
otherwise evaluated which ongoing programs should receive continued
funding. Because OJP lacked this evidence, we could not evaluate why
Schofield approved awarding non-competitive OJJDP grants or whether these
awards were the best use of OJJDP’s funds. In addition, we could not
determine the extent to which any contacts from Congress or the White
House affected Schofield’s decision to make these awards.

      In our opinion, grant-awarding agencies should document the reasons
for their award decisions. This is especially true when agency heads decide
to set aside funds from competitive award programs to provide invitational
awards to pre-selected organizations. When an awarding agency cannot
show why it gave invitational awards to some organizations and not others,
the agency cannot demonstrate that the selection process was appropriate
or that its award decisions were not made for subjective, arbitrary, or
capricious reasons. A lack of documentation justifying invitational awards
also prevents OJP decision makers from fully responding to concerns that
they received undue pressure to make such awards. In an effort to enhance
the transparency of the OJJDP award process, we recommend that OJP
implement a policy to ensure that award decision makers, including the
Assistant Attorney General for OJP and the OJJDP Administrator, maintain
records supporting their selections or approvals of OJJDP invitational awards.




                                     15
       In addition, we were concerned by the way OJP announced OJJDP’s
individual award program recipients in its press releases and on its website.
OJP did not distinguish in these public announcements whether awardees
received invitational or competitive grants. For example, OJP announced all
23 FY 2007 National Juvenile Justice Programs grants in one list on the
OJJDP website – even though 12 were awarded by OJP through invitations,
while 11 others received awards after their proposals were selected through
a competitive process. We believe that such an award announcement
obscured the different ways each recipient obtained their respective grant
and left the incorrect impression that all of the announced grants were
awarded on a competitive basis. To increase the transparency of OJJDP’s
award process, we recommend that OJP specify how each OJJDP award
recipient obtained its award, whether by earmark or other congressional
request, invitation, continuation, or open competition, when announcing
program award winners on its press releases and websites.

Conclusion

       In our opinion, OJP did not have sufficient policies in place for FY 2007
to govern how it or its bureaus and program offices should select award
recipients with non-earmarked funds. The absence of earmarks in FY 2007,
coupled with a lack of applicable grant selection rules, gave OJP and OJJDP
considerable latitude in determining the organizations that should receive
awards. OJJDP Administrator Flores proposed a preliminary spend plan
calling for FY 2007 OJJDP awards to be made through a competitive process.
However, Assistant Attorney General Schofield told us that officials in
Congress, the White House, and the DOJ wanted certain organizations to
receive funding. Therefore, OJP allocated over $74 million to invited
organizations, leaving under $40 million for open competition under six
different solicitations.

       We asked OJP officials why some organizations received invitational
OJJDP awards while others had to submit proposals and compete for funds.
Schofield provided two reasons for awarding these grants non-competitively.
First, she said she believed that some of the invitational awards would
provide the funding necessary to continue programs that had received
support under prior-year earmarks. Second, she said that some invitations
stemmed from considerable input her office received from Congress and the
White House asking that certain organizations receive OJJDP grants.
However, OJP could not provide us with documents explaining the reasons
these specific organizations received OJJDP funds non-competitively. As a
result, we could not assess the appropriateness of Schofield’s decision to
make these invitational awards.


                                      16
      In view of OMB’s instruction that grant makers should use a merit-
based approach in selecting award recipients, we make two
recommendations to improve the transparency of OJJDP’s grant process and
to ensure that OJP documents future non-competitive OJJDP awards.

Recommendations

We recommend that OJP:

  1.    Implement a policy to ensure that award decision makers, including
        the Assistant Attorney General for OJP and the OJJDP
        Administrator, maintain records supporting their selections or
        approvals of OJJDP invitational awards.

  2.    Specify how each OJJDP award recipient obtained its award,
        whether by earmark or other congressional request, invitation,
        continuation, or open competition, when announcing program
        award winners on its press releases and websites.




                                    17
                       CHAPTER THREE
             ANNOUNCING AND APPLYING FOR AWARDS

      Each OJP bureau and program office develops and issues solicitations
to notify potential applicants of new award programs. Solicitations also
specify how OJP will evaluate and select proposals for funding. According to
one senior OJJDP manager, solicitations are critical to the success of award
programs because well-written and detailed solicitations “bring in the best
applicants.”

     We determined that OJJDP issued 34 solicitations in FY 2007. 30
Generally, these solicitations included the 11 elements shown in Exhibit 3-1.

                EXHIBIT 3-1: OJJDP SOLICITATION ELEMENTS
  1.   Program Overview. Describes the mission and objectives of the announced
       program.
  2.   Registration Requirements. Details how an organization may register and
       obtain a program application.
  3.   Application Deadline. Documents the specific date and time that an applicant
       needs to submit an application.
  4.   Eligibility Requirements. Details what types of organizations, such as state and
       local governments, corporations, or non-profit entities, are eligible to apply for
       program funding.
  5.   Faith-based and Community Organizations Clause. Documents that eligible
       faith-based and community organizations can submit proposals under the
       solicitation.
  6.   Program-Specific Information. Describes various programmatic requirements
       and objectives.
  7.   Performance Measures. Informs applicants on how program performance will
       be evaluated and measured.
  8.   How To Apply. Instructs applicants on how to submit a proposal for funding.

  9.   What an Application Must Include. Lists the various documents that must be
       submitted with a proposal.
  10. Selection Criteria. Describes how OJJDP selects awards from the proposals
      received.
  11. Review Process. Documents how OJJDP will review proposals received under
      the solicitation.
 Source: OIG review of OJJDP FY 2007 solicitations



       30
            Appendix 3 lists the competitive and invitational solicitations put forth by OJJDP in
FY 2007.

                                               18
       In the FY 2007 grant cycle, OJJDP publicly announced 20 competitive
solicitations that were open to state and local governments and non-profit
organizations seeking applications for funds. These solicitations stated that
each application would be rated on a 100-point scale and assigned point
values for five different elements: (1) Statement of the Problem and
Program Narrative; (2) Impact, Outcomes, and Evaluation; (3) Project or
Program Design and Implementation; (4) Capabilities and Competencies;
and (5) Budget. 31

     OJJDP also included a notice on each competitive solicitation, as shown
by Exhibit 3-2, stating how it would evaluate proposals.

        EXHIBIT 3-2: SOLICITATION REVIEW PROCESS NOTICE

                 OJJDP is committed to ensuring a competitive and
              standardized process for awarding grants. Applications will
              be screened initially to determine whether the applicant
              meets all eligibility requirements. Only applications
              submitted by eligible applicants that meet all other
              requirements will be evaluated, scored, and rated by a peer
              review panel.

                 Peer reviewers’ ratings and any resulting
              recommendations are advisory only. All final grant award
              decisions will be made by the U.S. Department of Justice,
              which may also give consideration to geographic distribution
              and regional balance when making awards.

             Source: OJP solicitation template

       In addition, OJJDP also opened nine solicitations to organizations that
were specifically invited to apply for new or continued funding. Five
additional solicitations were opened for non-discretionary grants to state,
local, and tribal governments. 32




       31
            See Chapter Four for additional information on these solicitation elements.
       32
         OJP announces competitive solicitations on its website, in the Federal Register,
and on Grants.gov.

                                                 19
Developing Solicitations

      The OJP Grant Manager’s Manual (Manual) details the procedures that
each bureau and program office should use to develop award solicitations.
According to the Manual, each organization should appoint a solicitations
coordinator (coordinator) to oversee how each solicitation is developed,
reviewed, and approved.

       OJJDP officials told us that when developing solicitations they consider
what types of support the overall juvenile justice community needs and
whether OJJDP has funds available to support such initiatives. After the
Administrator decides whether to use OJJDP funds to support a particular
program, a staff member drafts the solicitation and uses a pre-approved
solicitation template that contains boilerplate instructions and other policy
information. Various managers edit and review the draft solicitation, which
is submitted to the Administrator for approval.

       Upon approval by the Administrator, the coordinator submits the
solicitation to OJP for further review. As shown by Exhibit 3-3, several
offices review draft grant solicitations.




                                      20
                           EXHIBIT 3-3: FY 2007 OJP SOLICITATION DRAFTING PROCESS
                 BEGIN

                                                    Submitting office's solicitation
   Bureau or program office (submitting
                                                coordinator submits the solicitation to
    office) drafts and edits a program
                                               OJP's Office of Budget and Management
                 solicitation
                                                               (OBMS)*




                                               OBMS determines whether the drafted
  Submitting office reviews and responds
                                               solicitation meets various performance
               to comments
                                                      measurement requirements




                                                      Does the solicitation meet
                   NO                                performance measurement                 YES
                                                           requirements?




                                                                           Office of the Assistant Attorney General
                                                                                 reviews solicitation for policy                                                        NO
                                                                                         requirements




                                                                               Does the solicitation meet OJP
                                                                                   policy requirements?




                                                                                                                                                           Does the solicitation include
                                                                                                             Office of Assistant Attorney General
                                           OJP's Office of General C ounsel (OGC )                                                                         required statement ensuring
      Does the solicitation meet OJP                                                                         sends solicitation to Deputy Attorney
                                                reviews solicitation for legal               YES                                                             that faith and community
          policy requirements?                                                                                General's Task Force for Faith and
                                                        requirements                                                                                      based organizations can apply
                                                                                                                 C ommunity-Based Initiatives
                                                                                                                                                                    for awards?



                                                                           Submitting office, Office of the Assistant
                   YES                                                       Attorney General, OBMS, and OGC                                                            YES
                                                                           conduct a final review of the solicitation




                                                                           Office of the Assistant Attorney General            * In late FY 2007, OBMS was incorporated into
                                                                             approves solicitation for posting on                OJP's Office of the C hief Financial Officer and
                                                                           OJP's Grants Management System and                    was renamed the Budget, Planning, and
                                                                                          Grants.gov                             Performance Division

                                                                                              END

Source: OIG analysis of OJP procedures


                                                                                          21
       Under OJP policy, it can take as long as 47 business days to complete
the drafting and review process before a solicitation is announced. However,
because Congress approved the DOJ spend plan in April 2007, OJP’s Deputy
Assistant Attorney General Beth McGarry told us she recognized that FY
2007 was going to be a “grueling” grant year and required OJP officials
charged with reviewing solicitations to expedite their review so that the
process could be completed in 28 days. Even though the expedited process
provided each bureau or program office less time to review and edit
solicitations, each OJP office shown in Exhibit 3-3 still needed to ensure that
the solicitations complied with applicable laws and other requirements.

      According to McGarry, OJP encourages its bureaus and program offices
to post solicitations as early as possible after the beginning of the fiscal year.
If OJP was operating without a final budget, its bureaus and program offices
could post solicitations with a notice that awards were contingent on the
availability of funds.

      However, we found that while OJJDP received notice of its final funding
amount when Congress passed the joint resolution on February 15, 2007, it
did not begin working on Part E and other solicitations until 2 months later –
after Congress approved the DOJ spend plan.

       Officials confirmed that it was Administrator Flores’s decision that
OJJDP would not prepare grant solicitations until Congress approved OJP’s
spend plan. When we asked Flores why OJJDP did not develop its
solicitations earlier and thereby ease the time crunch, Flores said he did not
encourage early solicitation development for two reasons. First, Flores
stated that if he assigned staff to draft solicitations before OJJDP received its
final funding, current grantees may have inadvertently received early notice
that a solicitation was being developed and would then have more time to
prepare their applications, giving them an unfair advantage over new
applicants. Second, Flores said that if OJJDP posted a solicitation contingent
on funding, he feared that many faith-based and community organizations
would spend their limited resources developing applications for solicitations
that may never secure funding.

       Although OJJDP moved quickly to draft solicitations after Congress
approved the spend plan, no rule or other requirement precluded it from
developing solicitation drafts earlier. Nor did Flores’s explanations indicate
why OJJDP could not have developed solicitations earlier. In fact, OJJDP
employees told us that at least one other OJP bureau began drafting
solicitations for their grant programs at the beginning of the fiscal year. As
a result, this bureau was able to provide potential applicants with more time
to prepare and submit their proposals than OJJDP was able to allow.

                                       22
Competitive Solicitation Deadlines

      OJJDP posted six different solicitations for Part E and Juvenile
Mentoring programs in May and June 2007 and instructed potential
applicants to submit applications by specified deadlines. Exhibit 3-4 shows
that OJJDP initially announced that these solicitations would be open for an
average of 17 days.

     EXHIBIT 3-4: COMPETITIVE SOLICITATION DEADLINES FOR
             PART E AND JUVENILE MENTORING PROGRAMS
                                                   Number of
                                          Initial     Days
                                       Application Solicitation
                Solicitation Title      Deadline      Open
    Mentoring                          June 8           16
    Reentry                            June 8           16
    Substance Abuse                    June 8           17
    Prevention and Intervention        June 8           16
    National Juvenile Justice Programs June 8           18
    Project Safe Childhood             June 15          18
                                         AVERAGE    17 DAYS
   Source: OJJDP

Grants.gov Registration Process

      While organizations that received invitations to apply for awards
submitted their applications directly to OJP, all organizations applying under
competitive solicitations were required to submit their applications via
Grants.gov, a federal grant clearinghouse used by OJP. 33 To receive
application packets and apply for funds under competitive solicitations,
applicants are first required to have access to a Grants.gov account.
According to OJJDP officials, the broad scope of certain FY 2007 solicitations
meant that many new applicants, including faith-based and community
organizations, were eligible to compete for awards. Many of these groups
had never previously applied for OJJDP funds, and therefore may not have
had a Grants.gov account. Such organizations had to register with the site
before they could download application forms.

       33
            Grants.gov was established after the passage of Pub. L. No. 106-107 and the
2002 President’s Management Agenda, which called for a centralized website for grant
solicitations and applications. Grants.gov has since published over 1,000 solicitations from
26 federal agencies, and has received over 300,000 grant applications. The Department of
Health and Human Services, one of the largest federal agencies in grant award amounts,
administers the Grants.gov website.


                                             23
      According to the Grants.gov website, the registration process alone
can take from 3 to 5 days to complete – assuming applicants complete their
account registration forms correctly. The instructions that OJP provides to
prospective applicants states that it can take “several weeks” to confirm
registrations and establish usernames. 34

       Upon receiving an application packet, Grants.gov technicians review it
for system and compatibility issues. Depending on the results of this check,
an application could be delayed for several days if Grants.gov is unable to
process it correctly. According to Grants.gov technicians, such delays can be
caused by incompatible file formats or software. Grants.gov lists these
potential problems on its website. When an application fails the technical
review, Grants.gov sends an e-mail to the applicant with instructions on how
to fix and resubmit the application. 35

Technical Problems and Late Applications

      OJJDP officials confirmed that many applicants for FY 2007 grants
reported having problems registering with Grants.gov or otherwise
submitting proposals within the tight solicitation deadlines. As a result,
many organizations contacted OJJDP requesting permission to bypass
Grants.gov and submit applications directly to OJP to meet the deadline.
OJJDP officials also told us that Grants.gov forwarded some applications to
OJP after the deadline. One OJP official called Grants.gov “unreliable” and
believed that its website could not handle the large number of grant
proposals submitted. In light of these concerns, OJP officials contacted
Grants.gov representatives and began working directly with Grants.gov and
applicants to resolve various technical issues.

       We believe that the short time period (17 days on average) during
which OJJDP’s Part E and Juvenile Mentoring program solicitations were open
contributed to the FY 2007 application problems. Considering that generally
it takes about one week for new applicants to register with Grants.gov and
for Grants.gov to perform technical reviews, the deadlines established by
OJJDP actually provided only 9 to 11 days for new applicants to prepare and
       34
            Appendix 4 contains additional details regarding the Grants.gov registration
process.
       35
          Grants.gov warns all prospective applicants that specific software formats and
operating systems are not compatible with its servers. For example, Grants.gov cannot
process applications submitted by computers running Microsoft Windows Vista (Vista).
According to Grants.gov representatives, the validation process screens for and rejects
applications submitted by computers running Vista.


                                              24
submit their Part E and Juvenile Mentoring program applications. Grants.gov
officials told us that most agencies generally keep solicitations open for
about 30 days. In our opinion, the short deadlines for these OJJDP
solicitations did not provide applicants and Grants.gov sufficient time to
resolve registration and other technical problems.

      A senior OJJDP manager agreed that OJJDP did not provide adequate
time for organizations to apply for Part E and Juvenile Mentoring grants and
suggested that OJJDP should implement a standard application period to
provide organizations more time to apply for awards. Considering the
registration and technical issues encountered by organizations during FY
2007, we recommend that OJP require OJJDP to establish a minimum length
of time that solicitations remain open for applicants to submit proposals for
competitive awards. By developing and adhering to such a minimum time
period, ranging from 30 to 60 days, OJJDP could help applicants avoid many
of the submission problems they encountered in FY 2007 while providing
them with sufficient time to apply for awards. Setting such a standard could
also result in an increase in the number of OJJDP award applicants because
short deadlines would not deter organizations, particularly new ones, from
applying.

       We asked OJJDP managers why Part E and Juvenile Mentoring
solicitations were only open for an average of 17 days. Managers told us
that applications had to be received by the middle of June so that they could
make awards by the end of the fiscal year. 36 They said the application
deadlines had to be shortened in part because the solicitations were not
posted on Grants.gov until May 2007. As noted previously, however, Flores
did not allow the solicitations to be developed, drafted, and approved until
after Congress approved OJP’s spend plan in April.

       We recognize that simply developing a minimum length of time for
OJJDP to keep competitive solicitations open may not ensure that applicants
have adequate time to apply for funds. However, we believe that OJJDP
should change its practice of waiting until it receives final approval for
funding before developing, drafting, obtaining approval of, and posting
solicitations. We recommend that OJP require OJJDP to enhance its
solicitation development procedures by drafting and approving solicitations
throughout the fiscal year so that solicitations allow applicants a reasonable
amount of time to apply for competitive awards.



       36
          OJP requires program offices to submit award recommendations to its Office of
the Chief Financial Officer by July 31 so that project budgets and other financial aspects of
the grant can be reviewed and approved before the award is finalized.

                                              25
OJP Efforts to Handle Late Applications

       On June 8, 2007, the deadline for five of the six competitive
solicitations we reviewed, OJJDP updated its website with a notice to
applicants that had problems submitting proposals. According to OJP
officials, Assistant Attorney General Schofield approved the following
instructions.

                     EXHIBIT 3-5: JUNE 8, 2007 NOTICE
                           TO LATE APPLICANTS

               Applicants who have missed the deadline for this
           solicitation and are able to demonstrate that the Grants.gov
           registration process was started at least 3 business days
           before this solicitation’s deadline should e-mail their complete
           application along with the Grants.gov funding opportunity
           number, registration start date and time, customer service
           contact names, and case number to [personally identifiable
           information redacted], not later than 8:00 p.m. E.T.,
           June 11, 2007.

           Source: OJJDP

       OJJDP staff explained that the primary purpose of the notice was to
allow organizations that experienced unforeseen technical problems to
submit applications directly to OJP. Under these instructions, OJJDP staff
believed they could only allow direct submissions from applicants that:
(1) tried to register with Grants.gov in time to submit an application; and
(2) contacted Grants.gov in an attempt to fix their application’s technical
errors before the solicitation deadline. The notice precluded direct
submissions from applicants who began the Grants.gov registration process
too late or otherwise failed to comply with specific application guidelines.

       As a result of the June 8 notice, 98 organizations sought to submit
grant applications after the deadline. OJJDP staff evaluated each request
based on the criteria in the June 8 notice. On a case-by-case basis, OJJDP
then sent e-mails to applicants informing them whether they could submit
their application directly to OJP’s Grants Management System. 37 As shown
by Exhibit 3-6, OJJDP allowed 54 of the 98 requesting applicants to make
submissions directly to OJP under the terms of the June 8 notice.




      37
          OJP administers its Grant Management System to support the application,
approval, tracking, and closeout functions of its awards.

                                           26
   EXHIBIT 3-6: OJJDP ASSESSMENT OF APPLICANT REQUESTS TO
       SUBMIT APPLICATIONS FOLLOWING JUNE 8 NOTICE
                                          Number of
                                          Applicants
                                          Submitting        Allowed to
                                           Evidence       Resubmit under
                                         Under June 8     June 8 Notice?
           Solicitation Title               Notice         Yes      No
   Mentoring                                        35         17      18
   Reentry                                           9          5       4
   Substance Abuse                                   9          4       5
   Prevention and Intervention                      34         20      14
   NJJP                                              7          4       3
   Project Safe Childhood                            4          4       0
                            TOTALS                  98        54       44
  Source: OIG analysis of OJP records

      OJJDP contacted the 54 organizations it decided met the criteria
necessary to submit applications directly to OJP and provided them with
instructions as to how to submit applications directly to OJP’s Grant
Management System. OJJDP also notified applicants that either failed to
submit their evidence by June 11, 2007, or otherwise could not demonstrate
compliance with the application guidelines that their applications would not
be considered.

OJJDP Decision to Extend OJP’s Deadline

      According to OJJDP records and staff, after the June 8 notice was
posted to the website, several organizations complained that they should be
allowed to submit applications directly to OJP even though they missed
deadlines or did not comply with posted application guidelines. A few
organizations complained to senior OJJDP officials that they were not aware
of the June 8 extension notice until it was too late, and at least one applicant
referred to OJJDP’s application process as “frustrating and unfair.”

      On July 2, 2007, an OJJDP manager met with an advisor to Flores and
provided him with a list of organizations that had been allowed to submit
applications directly to OJP’s system pursuant to the June 8 extension.
According to Flores, his advisor later told him of problems reported by those
organizations in trying to submit their applications to OJP. Flores said he
then decided that any organization claiming a problem with Grants.gov
should be allowed to submit an application. This decision meant that
organizations that OJJDP had already contacted and informed that they


                                        27
could not apply pursuant to the June 8 extension notice would now be
permitted to submit their applications directly to OJP.

       However, we found that OJJDP staff did not update the website to
reflect this second extension. Instead, OJJDP staff began notifying certain
organizations that they had until July 5, 2007, to submit their applications.
For the 6 program announcements we reviewed, OJJDP received 61
additional applications as a result of this Administrator-approved deadline
extension. 38

       After Assistant Attorney General Schofield learned that OJJDP had
extended the deadline for its applicants without approval from OJP, Deputy
Assistant Attorney General McGarry wrote an e-mail to Flores asking why
OJJDP allowed ineligible applicants to submit applications directly to OJP.
Flores replied that he authorized the deadline extension because he was not
willing to have applicants “disqualified” from applying simply because they
“could not navigate” Grants.gov.

      Flores also wrote in the e-mail that he suspected that many faith-
based and community organizations were among those that had application
problems. According to Flores’s e-mail, it would have been a “disaster” if
these organizations could not apply under the competitive solicitations,
especially considering that their participation was “a presidential priority.” 39

OJP Solicitation Template Revision

       As a result of these technical problems, in September 2008, OJP
updated the template its bureaus and program offices use to draft their
solicitations. The revised template instructs applicants to contact OJP
regarding any unforeseen Grants.gov technical issue “within 24 hours after
the due date.” Because new solicitations will include this instruction,
individual applicants are now responsible for reporting application problems,
not OJP or Grants.gov.




       38
          Appendix 5 lists the organizations that submitted applications under the OJJDP
July 5, 2007, deadline extension.
       39
           Executive Order 13279 (2002) directs heads of federal agencies that provide
services to children and others in need, which includes the OJJDP Administrator, to
encourage the participation of faith-based and community organizations in receiving federal
financial assistance.

                                            28
      However, the revised solicitation template does not address whether a
unilateral extension of solicitation deadlines may be made by the head of the
bureau or program office. While OJP officials told us that such deadline
extensions are rare, we believe that if a bureau or program office extends a
deadline, as Administrator Flores did in FY 2007, OJP should ensure that the
bureau or program office publicly announces such a decision to protect the
integrity and fairness of its competitive solicitation process. When OJJDP
allowed some organizations to submit late applications without publicly
announcing the deadline extension, applicants that submitted their proposals
on time may have been placed at a disadvantage because they had less time
to complete their application. Meanwhile, other applicants may not have
been aware that they could submit an application after the original deadline.
As a result, we believe the way OJJDP carried out the second deadline
extension fostered an appearance of unfairness in the application process.
We recommend that OJP require OJJDP to document the reasons for
extending solicitation deadlines and announce any deadline extension
publicly so that all potential applicants may be informed of changed
deadlines.

Conclusion

      Our review of the FY 2007 application process found that OJJDP did
not draft competitive solicitations before receiving notice that Congress
approved its spend plan in April 2007. As a result, OJJDP managers were
not able to post solicitations until May 2007, which shortened the time
available for organizations to apply for OJJDP competitive grants to an
average of 17 days. We believe that such a short timeframe did not provide
applicants adequate opportunity to prepare applications and complete the
application process through Grants.gov, particularly for grant applicants not
previously registered with the web-based grant application system.

       In addition, OJP’s June 8, 2007, public notice to applicants specified
objective requirements that allowed applicants that experienced unforeseen
difficulties with Grants.gov to submit proposals after the previously
established deadline. However, OJP or OJJDP did not publicly announce
Flores’s later decision to extend further the application deadline, which we
believed helped to foster an appearance of unfairness in the grant
application process.




                                     29
Recommendations

We recommend that OJP:

  3.   Require OJJDP to establish a minimum length of time that
       solicitations remain open for applicants to submit proposals for
       competitive awards.

  4.   Require OJJDP to enhance its solicitation development procedures
       by drafting and approving solicitations throughout the fiscal year so
       that solicitations allow applicants a reasonable amount of time to
       apply for competitive awards.

  5.   Require OJJDP to document the reasons for extending solicitation
       deadlines and announce any deadline extension publicly so that all
       potential applicants may be informed of changed deadlines.




                                    30
                                   CHAPTER FOUR
                                   PEER REVIEWS

      A comprehensive peer review subjects a grant application to the
scrutiny of a panel of impartial subject-matter experts. When conducting
peer reviews for particular grant programs, reviewers evaluate a subset of
proposals and discuss the attributes of these proposals with a panel of other
reviewers. Scores are typically then computed and ranked according to
specified grant solicitation requirements. 40

      However, the peer review process does not compare the value of one
application’s proposal against another. Peer review results are often one of
the criteria used by the Assistant Attorney General for OJP and the OJJDP
Administrator to make decisions about grant funding.

       OJP’s Peer Review Procedure Manual requires bureaus and program
offices to select criminal justice system professionals to conduct the peer
reviews of grant proposals. Peer review panels may be composed of either
expert consultants hired for such purposes or program office employees. An
external peer review occurs when the program office hires outside expert
consultants, while an internal peer review is one conducted by OJP staff.
During FY 2007, OJJDP reviewed grant proposals under several solicitations
using an external peer review process. It also conducted internal peer
reviews of applications for the National Juvenile Justice Programs and Project
Safe Childhood solicitations.

External Peer Reviews

      From 1988 to 2002, Congress required OJJDP to apply rigorous peer
review procedures for National Program grants awarded under what was
then Part C of the Juvenile Justice and Delinquency Prevention Act. Pursuant
to 28 C.F.R. 34, OJJDP consulted with the National Science Foundation and
the National Institute of Mental Health to develop its peer review guidelines
to evaluate Part C proposals. OJJDP convened three-person peer review
panels to assess both competitive and invited grant applications for National
Programs. Although the guidelines stated that peer review
recommendations were advisory only, the guidelines OJJDP developed
required the OJJDP Administrator to “offer full consideration” to external
peer review recommendations when approving proposals for funding.


       40
          A publication issued by the National Institute of Health defined the core values of
the peer review process as “fairness, timeliness, and integrity.”


                                             31
      Congress reauthorized the Juvenile Justice and Delinquency Prevention
Act in 2002. However, the reauthorization did not include a similar statutory
requirement for OJJDP to use a formal peer review process to evaluate grant
proposals.

Juvenile Justice Resource Center

      After 2002, however, OJJDP continued to use a peer review process
and conducted external peer reviews under a multi-year blanket purchase
agreement awarded to Aspen Systems Corporation. 41 Under the $10 million
agreement, the company staffed and maintained the Juvenile Justice
Resource Center and provided technical assistance and administrative
support to OJJDP and its grantees for a period of 4 years. By 2007, OJP
modified the Juvenile Justice Resource Center agreement to include
coordinating and conducting OJJDP’s external peer reviews.

      Exhibit 4-1 presents an overview of peer review procedures.




      41
         Lockheed Martin acquired Aspen Systems in 2005 and it became Lockheed Martin
Aspen Systems.

                                         32
             EXHIBIT 4-1: OVERVIEW OF THE PEER REVIEW PROCESS USED BY
                  OJJDP AND THE JUVENILE JUSTICE RESOURCE CENTER
                                                             START
                                 JJRC selects peer       Juvenile Justice         JJRC drafts Basic
             JJRC submits
                                  reviewers from        Resource C enter              Minimum            JJRC submits BMR
          selections to OJJDP
                                 OJJDP peer review       (JJRC ) receives        Requirements (BMR)      checklist to OJJDP
              for approval
                                     database           peer review task               checklist
                                                              order




                                                        JJRC drafts peer
           OJJDP approves
                                                       reviewer contract,                                 OJJDP approves
             peer review                NO                                               NO                                            YES
                                                        instructions, and                                 BMR checklist?
             selections?
                                                          score sheets




                                                         JJRC submits                                                          JJRC receives copies
                 YES                                  material to OJJDP for                                                        of submitted
                                                            approval                                                               applications




             JJRC checks
                                                        OJJDP approves
          availability of peer
                                                            contract,                                                          Applications undergo
            reviewers and              YES                                               NO                      NO
                                                        instructions, and                                                        BMR screening
           schedules peer
                                                          score sheets?
                reviews



                                 JJRC assigns peer
                                   review panels                                                          OJJDP approves
                                                                                                                               JJRC compiles BMR
                                     individual                                          YES              BMR screening
                                                                                                                                screening results
                                   applications to                                                            results?
                                      evaluate



                                                                                                          JJRC monitors the        JJRC receives
                                                      JJRC and OJJDP hold        Peer reviewers begin
                                                                                                           status and tracks    preliminary scores
                                                      orientation calls with      assessing individual
                                                                                                          completion of peer   and comments from
                                                         peer reviewers               applications
                                                                                                         review assessments       peer reviewers



                                                        JJRC normalizes
                                   JJRC ranks peer                                JJRC receives final      JJRC facilitates        JJRC sends
                 END                                  scores to account for
                                  review scores and                              peer review scores      consensus calls for   comments to OJJDP
            OJJDP receives                             variances between
                                     consolidates                                and comments from       peer reviewers and    staff for consensus
          peer review results                             different peer
                                      comments                                      peer reviewers           OJJDP staff               calls
                                                            reviewers



Source: OIG review of Juvenile Justice Resource Center peer review work orders



                                                                            33
      OJJDP spent a total of $501,490 on peer reviews conducted under the
Juvenile Justice Resource Center agreement during FY 2007, as shown by
Exhibit 4-2.

   EXHIBIT 4-2: 2007 JUVENILE JUSTICE RESOURCE CENTER PEER
                             REVIEW COSTS
                                                   Amount
                        Category                     ($)
       Contractor Employee Direct Labor Costs         200,914
       Peer Review Panelist Fees and Support Costs    272,225
       Indirect Costs                                  27,901
       Miscellaneous Expenses                             450
                                           TOTAL    $501,490
        Source: OJP

      We found that Juvenile Justice Resource Center employees billed 4,320
hours of labor to support OJJDP’s peer reviews in FY 2007. Direct labor
costs, including contractor employee salaries, were $200,914, or 40 percent
of the total peer review cost. The Juvenile Justice Resource Center
subcontracted individual consultants as peer reviewers, which cost
$272,225, and it billed OJJDP an additional $27,901 in indirect costs
associated with general and administrative fees.

      In May 2007, OJJDP issued a work order for the Juvenile Justice
Resource Center to conduct Basic Minimum Requirement screening and peer
reviews for applications received under six different solicitations. 42 However,
the work order also directed the Juvenile Justice Resource Center to convene
peer review panels of two consultants and not to hold consensus calls, which
up to that point had been a standard part of the peer review process. 43 As
shown by Exhibit 4-3, 88 consultants were hired to evaluate 1,084
applications received under 6 announcements.




       42
         Basic minimum requirements screening quickly assesses whether proposals
comply with length-limit requirements, formatting rules, and other critical solicitation
elements to establish a “level playing field” for the peer review.
       43
          Consensus calls are discussions held among peer review panelists and an OJJDP
representative to discuss preliminary peer review results.

                                              34
         EXHIBIT 4-3: SOLICITATIONS AND PROPOSALS
   PEER REVIEWED BY THE JUVENILE JUSTICE RESOURCE CENTER
                                                          Number of
                                                             Peer
                                                            Review
                        Solicitation Title                Consultants
        Mentoring                                                  28
        Reentry                                                    13
        Substance Abuse                                            19
        Prevention and Intervention                                25
        Gang Prevention Coordination Assistance Program *          14
        Juvenile Drug Courts/Reclaiming Futures Program*             2
                                                                    **
                                                   TOTAL         88
         Sources: OJP and Juvenile Justice Resource Center monthly reports
         Notes:
         *
              Two of the six programs that Juvenile Justice Resource Center
              peer reviewed under the work order were for non-Part E
              programs. Since Juvenile Justice Resource Center work order
              reports combine figures based on the work order number, Exhibit
              4-3 includes the consultants assigned to these two programs
              since we could not exclude them from the total number of
              consultants used for all six programs.
         **
              Some peer reviewers reviewed applications received under more
              than one solicitation.

       Because these six solicitations closed around the same time, the
Juvenile Justice Resource Center assigned teams of consultants to conduct
the peer reviews of applications for the six solicitations simultaneously. Our
analysis of this external peer review process identified the following
deficiencies.

      No Orientation Calls Were Held For Peer Reviewers

      OJJDP’s peer review work orders directed the Juvenile Justice Resource
Center to prepare lists of approved consultants who could serve as external
peer reviewers. In May 2007, OJJDP named 29 new consultants for the
Juvenile Justice Resource Center to use as peer reviewers. OJJDP made this
recommendation just prior to the beginning of the peer review process for
the six OJJDP solicitations listed in Exhibit 4-3. However, under the peer
review work order, neither OJJDP nor the Juvenile Justice Resource Center
provided these peer reviewers with an orientation call to ensure that they
understood the solicitation requirements.




                                         35
       Before FY 2007, OJJDP typically requested that its contractor conduct
orientation calls to provide consultants with an opportunity to ask questions
about what to look for while reviewing applications or logistical questions
about the peer review process. One OJJDP manager told us that OJJDP did
not believe there was time to conduct orientation calls, given the timeframe
allotted for the peer reviews. However, because 29 of the 88 peer reviewers
were new, we believe that orientation calls should have been conducted.

     Reduced Efforts to Mitigate Subjective Peer Review Scores

      OJJDP approved scoring sheets used by the peer reviewers in
assessing applications. Exhibit 4-4 outlines the five elements peer reviewers
considered and to which they assigned points in evaluating the proposals.

               EXHIBIT 4-4: SUMMARY OF PEER REVIEW
                      SCORE SHEET ELEMENTS
          1. Statement of the Problem. Does the application
             describe the need for the proposed project? How does
             funding advance the objectives of the announced
             program?

          2. Project Impact, Outcomes and Evaluation. Does the
             application describe the goals and objectives of the
             project? If so, how does the applicant propose to
             accomplish these goals?

          3. Project or Program Design and Implementation.
             How will the applicant implement the proposed program?
             Does the proposal include performance measures and a
             timeline to indicate when major tasks will be completed?

          4. Organizational Capabilities and Competencies. Does
             the applicant demonstrate the capacity to complete
             proposed work? Does the applicant have knowledge and
             experience of the program objective environment?

          5. Budget. Does the budget show a complete, allowable,
             and cost-effective approach in relation to the proposed
             activities? Does the budget include a narrative that
             supports the proposed costs?
         Source: OJJDP




                                       36
       Although scoring sheets assigned a specific number of points to each
element shown in Exhibit 4-4, peer reviewers still had wide latitude to assess
applications subjectively. For example, one peer reviewer may assign an
application a score of “80” and believe that score to be very good, while
another peer reviewer may consider “80” to be a low score. To mitigate the
effect of subjective assessments on peer review scores, an OJJDP manager
told us that peer reviews should be conducted by three-person panels, and a
consensus call should be held by each panel to discuss the scores with the
other peer reviewers and an OJJDP representative.

       Two Consultants Per Peer Review Panel. According to experienced
OJJDP officials, each peer review panel should have at least three
consultants to compensate for subjectivity in scoring. One official explained
that if one reviewer in three gave an application an extremely high or an
extremely low score, the ratings of the other two peer reviewers would help
mitigate the effect of the extreme score. However, in the 2007 work order
OJJDP authorized the hiring of only two consultants for each peer review
panel. OJJDP officials told us that, in the past, the contractor usually used
three consultants on its peer review panels. According to one OJJDP official,
the reason the contractor was told to use only two peer reviewers per panel
for FY 2007 work was to reduce the time the required to schedule and
complete the peer reviews.

      OJJDP Instructed Its Contractor Not to Hold Consensus Calls.
Consensus calls may last a long time – a prior OJJDP work order for peer
reviews to the Juvenile Justice Resource Center indicated that the consensus
calls may last “up to four hours” each. However, one OJJDP manager said
that consensus calls often result in changes and improvements to peer
review scores because they provide reviewers with a valuable opportunity to
discuss their scores with each other and an OJJDP representative. For
example, this manager discussed instances in which participation in a
consensus call caused peer reviewers to realize they had missed important
information about certain proposal elements. Additionally, consensus calls
allow OJJDP staff to identify issues with individual peer reviewers that may
compromise the quality of a review and, if appropriate, adjust widely
disparate preliminary scores. However, the 2007 work order instructed the
Juvenile Justice Resource Center not to hold consensus calls before ranking
peer review scores by stating that “scores and comments submitted by
reviewers . . . will be considered final.” An OJJDP official confirmed that
time constraints for these awards caused OJJDP to eliminate the step of
consensus calls.




                                     37
Expiration of the Juvenile Justice Resource Center Agreement

       The Juvenile Justice Resource Center submitted all peer review scores
in July 2007 and closed the peer review work order in September 2007. The
blanket purchase agreement with the Juvenile Justice Resource Center
expired on September 30, 2007, with $154,684 in OJP funds still obligated
to its task orders. Because OJJDP cannot use the expired agreement to
procure additional external peer reviews, we recommend that OJP deobligate
$154,684 from OJJDP’s Juvenile Justice Resource Center agreement, OJP
agreement number 2003-BF-028, as funds to be put to a better use.

OJP’s Consolidated External Peer Review Contract

       For FY 2008 awards, OJP has mandated that its bureaus and program
offices use its new component-wide, $10 million agreement with Lockheed
Martin. This contract explicitly requires that Lockheed Martin follow specific
procedures to ensure that peer review evaluations are objective and
consistent. The contract also requires peer reviewers to conduct orientation
calls, provides that at least three consultants be assigned to each peer
review panel, and specifies that consensus calls be conducted among peer
reviewers and OJP representatives.

Internal Peer Reviews

      According to OJJDP managers, time constraints led OJJDP
Administrator Flores to approve using staff members instead of contractors
to peer review the National Juvenile Justice Programs and Project Safe
Childhood solicitations. 44 Individual staff members reviewed seven to eight
applications for each solicitation. After completing their review, OJJDP
managers assigned staff to hold a consensus call with another peer reviewer
to discuss scoring differences. For consensus call assignments, the
managers told us they tried to pair newer staff members with more
experienced ones.

      An OJJDP Deputy Administrator explained that although internal peer
reviews were rare within OJJDP, its grant managers were “more than
competent” to conduct peer reviews quickly on the National Juvenile Justice
Programs. Once the decision was made to perform an internal peer review,
managers quickly conducted the basic minimum requirements screening of
the program applications and sent e-mails with instructions and assignments

       44
          Over 100 applicants competed for National Juvenile Justice Programs solicitation
funds, while OJJDP received only 47 applications for its Project Safe Childhood program. We
reviewed how OJJDP staff conducted the peer review of the larger number of proposals
received under the National Juvenile Justice Programs solicitation.

                                            38
to staff peer reviewers. However, our analysis of OJJDP’s internal peer
review of the National Juvenile Justice Programs applications revealed that
OJJDP did not ensure that its employees were aware of the solicitation
requirements or that its staff conducted consensus calls to discuss and
mediate differences in peer review results. In addition, OJJDP managers
also assigned only two staff members to each internal peer review panel.

       OJJDP also did not provide staff with orientation calls to discuss the
peer review process and the solicitation requirements. Several OJJDP
employees told us that even though a manager sent an e-mail with
instructions about how to conduct the peer review, they did not believe that
OJJDP adequately prepared them for the review process. They said that an
orientation call or meeting would have helped them better understand
National Juvenile Justice Programs funding priorities. Two of the 25 peer
reviewers told us that they did not even get a chance to read the entire
solicitation before conducting their review, in part because of the short
amount of time allotted to complete the reviews.

       OJJDP managers directed staff reviewers to conduct a consensus call
with their co-panelist to discuss results and scores after completing their
application reviews. We found that OJJDP staff conducted these consensus
calls informally, either in-person or by telephone. In two cases, however,
staff did not hold consensus calls because they were not able to schedule a
time to meet. In one instance, a manager “filled in” for an employee, while
in the other case no consensus call was conducted.

      OJJDP managers assigned only two employees to each peer review
panel. As discussed in the External Peer Review section above, we found
that having at least three people on each panel more effectively mitigates
the impact of subjectivity in the peer review process.

       While OJJDP staff may be qualified to conduct peer reviews on certain
national-scope grant solicitations, relying on employees to conduct peer
reviews presents challenges that need to be addressed to ensure objective
application assessments. OJJDP has rarely used its employees to conduct
internal peer reviews, and no rules or guidance governed such procedures.
Because OJJDP may again enlist its staff to conduct internal peer reviews,
we recommend that OJP ensure that OJJDP implement peer review protocols
for its employees and contractors to follow that: (1) require formal
orientation calls so that peer reviewers are aware of solicitation
requirements before conducting peer reviews; (2) include consensus calls to
discuss and mediate disparate peer review results; and (3) require panels to
include at least three peer reviewers.


                                     39
Basic Minimum Requirements Screening

       In view of the resources required to conduct adequate peer reviews,
we asked OJJDP and DOJ officials what steps could be taken to increase the
efficiency of the peer review process. OJJDP Administrator Flores agreed
that peer reviews can be time-consuming and expensive. Flores and an
official with the Associate Attorney General’s office also confirmed that peer
reviewers routinely assess many applications that do not meet fundamental
solicitation requirements. For example, if a solicitation calls for proposals to
continue an ongoing effort to combat juvenile delinquency, proposals for
new programs should not be submitted for peer review. Officials told us that
they believed that OJJDP should have a process for identifying and
eliminating proposals that do not meet such central solicitation elements to
avoid the time and expense of submitting them for peer reviews.

      As a part of its proposal review process, OJJDP checks each application
for basic minimum requirements before submitting proposals for peer
review. If a proposal includes too many pages or requests more money than
what is provided for by the solicitation, the basic minimum requirements
screening excludes it from peer review. According to OJJDP officials, basic
minimum requirements reviews not only reduce the number of applications
submitted to peer reviewers, they also establish a uniform standard from
which peer reviewers can subsequently judge acceptable applications.

      OJJDP develops or approves basic minimum requirements screening
checklists for each competitive solicitation. To assess how OJJDP has used
such screenings to exclude inadequate proposals, we reviewed basic
minimum requirements screening results of proposals received under FY
2007 solicitations. We found that of 572 proposals, OJP excluded 78
applications, 14 percent of the total. Some of the reasons for excluding
applications through basic minimum requirements screenings were:

   •   format issues such as unallowable font size, spacing, and margins;

   •   unallowable or excessive number of pages;

   •   missing required application sections such as budgets and performance
       narratives;

   •   duplicate submissions; and

   •   unallowable amount of funds requested.




                                      40
       We believe that OJJDP should enhance its basic minimum
requirements screening so that it also excludes applications that fail to meet
solicitation requirements beyond just the formatting, page length, and other
issues listed above. We recommend that OJP require OJJDP to augment and
use its basic minimum requirements checklist to identify and exclude
applications that fail to meet the purpose and scope of the solicitation.

Conclusion

      A comprehensive peer review process that objectively assesses the
merits of grant applications is an important component to ensuring that the
best grant applications are proposed to the OJJDP Administrator for funding.
Although OJJDP spent more than $500,000 on external peer reviews in
FY 2007, it directed its peer review contractor: (1) not to conduct
orientation calls; (2) to assign only two consultants to each peer review
panel; and (3) not to conduct consensus calls among panelists and OJJDP
representatives. We understand that time constraints caused OJJDP to
streamline the peer review process. Nevertheless, OJJDP expended
substantial resources on peer reviews that we believe were not conducted in
a manner ensuring that peer reviewers assessed each proposal consistently
and in accord with assessment criteria.

      The internal peer review process OJJDP used to evaluate and
recommend National Juvenile Justice Programs applications was also rushed
and lacked sufficient oversight. Some OJJDP staff indicated they did not
believe they were adequately prepared to conduct the peer reviews. In
addition, OJJDP did not ensure that all review staff held consensus calls to
discuss and mediate differences in peer review results. Moreover, OJJDP
only assigned two employees to each of its internal peer review panels.

       Finally, we believe that OJJDP should revise its basic minimum
requirements screening process to exclude applications that do not meet
required solicitation elements from the peer review process. OJJDP currently
uses basic minimum requirements checks only to eliminate applications that
do not comply with format and page length requirements. If such checks
also were used to exclude applications that clearly do not meet fundamental
solicitation requirements, the number of applications submitted to peer
reviewers would decrease, and thereby reduce the time and money required
to conduct peer reviews.




                                      41
Recommendations

We recommend that OJP:

  6.   Deobligate $154,684 from OJJDP’s Juvenile Justice Resource Center
       agreement, OJP agreement number 2003-BF-028, as funds to be
       put to a better use.

  7.   Ensure that OJJDP implement peer review protocols for its
       employees and contractors to follow that: (1) require formal
       orientation calls so that peer reviewers are aware of solicitation
       requirements before conducting peer reviews; (2) include
       consensus calls to discuss and mediate disparate peer review
       results; and (3) require panels to include at least three peer
       reviewers.

  8.   Require OJJDP to augment and use its basic minimum requirements
       checklist to identify and exclude applications that fail to meet the
       purpose and scope of the solicitation.




                                    42
                      CHAPTER FIVE
            RECOMMENDING AND SELECTING AWARDS

      The Assistant Attorney General for OJP and the Administrator share
the authority to make awards of OJJDP discretionary funds. For FY 2007,
OJJDP used the process outlined by Exhibit 5-1 for the Assistant Attorney
General to approve Administrator award recommendations. 45

        EXHIBIT 5-1: FROM PEER REVIEW RESULTS TO AWARDS

                                           Reviews results and        Develops
                          START                                                           Attaches peer
                                             summaries and        recommendation
    OJJDP           Receives peer review
                                              recommends          memorandum for
                                                                                       review results to the
                        results and                                                      recommendation
 Administrator           summaries
                                              proposals for         the Assistant
                                                                                           memorandum
                                                 awards           Attorney General




                            END                   NO
    Assistant         Award Selections                             Approves OJJDP            Receives
    Attorney          sent to Office of
                       Chief Financial
                                                                 Administrator award
                                                                  recommendations?
                                                                                         recommendation
                                                                                          memorandum
    General                Officer                YES




Source: Summary of OIG discussions with OJJDP Administrator Flores

      Assistant Attorney General Schofield and Administrator Flores told us
that they met on more than one occasion to review and discuss FY 2007
OJJDP award recommendations. Flores said that he assessed peer review
results and program summaries and recommended awards for each
competitive solicitation to Schofield.

Awards Not Based Strictly On Peer Review Results

       OJJDP managers told us that when peer review results came in, Flores
directed OJJDP staff to prepare summaries of the highest-ranked proposals.
OJJDP staff then provided the summaries and peer review results to Flores
for his review.




       45
         Although funding and award decisions were made between the Assistant Attorney
General and the OJJDP Administrator, the Attorney General maintained the final authority to
approve awards. See 42 U.S.C. § 3715 (2008).


                                                  43
       To determine whether Flores improperly awarded grants to non-profit
organizations with which he was alleged to have had contacts, we reviewed
peer review results to the final award selections for two competitive
solicitations – National Juvenile Justice Programs and Mentoring. 46 As shown
by Exhibit 5-2, several applicants with much lower-ranked peer review
scores received grant awards.

   EXHIBIT 5-2: PEER REVIEW RANKINGS OF NATIONAL JUVENILE
     JUSTICE PROGRAMS AND MENTORING AWARD RECIPIENTS
                                                                                  Peer
                             Award Recipient                                     Review
                      (Sorted By Peer Review Rank)                                Rank*
  National Juvenile Justice Programs Recipients (Ranking out of 104 total
  applicants)
    1. National Juvenile Court Services Association                                 7
    2. Council of Juvenile Correctional Administrators, Inc.                        8
    3. Latino Coalition for Faith & Community Initiatives                          26
    4. Enough is Enough                                                            33
    5. Fund for the City of New York – Center for Court Innovation                 39
    6. Victory Outreach Special Services                                           42
    7. ASPIRA Association                                                          44
    8. World Golf Foundation                                                       47
    9. Native American Children’s Alliance                                         48
    10. National Council of Juvenile and Family Court Judges                       51
    11. Best Friends Foundation                                                    53
  Mentoring Recipients (Ranking out of 237 total applicants)
    1. Virginia Mentoring Partnership                                               1
    2. Partnership for a Healthy Scott County, Inc.                                 2
    3. Pittsburgh Leadership Foundation                                             6
    4. National Congress of American Indians                                        9
    5. Committed Partners for Youth                                                15
    6. National Organization of Concerned Black Men, Inc.                          19
    7. People for People, Inc.                                                     42
    8. Plumas Rural Services                                                       43
    9. Messiah College - Harrisburg Institute                                      84
  Source: OJP
  Note:    Peer review rankings for the mentoring solicitation reflect scores adjusted by a
           normalization process that more evenly distributes high-ranking scores by peer
           review panels. OJJDP did not normalize National Juvenile Justice Programs
           scores. Therefore, we used the final average peer review panel score to rank
           these proposals.




      46
          We reviewed the solicitations for these two programs because they were subject
to peer reviews.


                                            44
     Of the 11 grants awarded under the competitive National Juvenile
Justice Programs solicitation, only the proposals submitted by the National
Juvenile Court Services Association and the Council of Juvenile Correctional
Administrators received top-20 peer review scores. By contrast, peer
reviewers ranked 6 of the 9 competitive Mentoring proposals selected for
awards among the top 20 proposals.

Allegations of Improper Award Recommendations

       Flores provided his reasons for recommending that various
organizations receive National Juvenile Justice Programs awards as part of
his testimony to the House Oversight Committee on June 19, 2008. Flores
said that as OJJDP Administrator he was not strictly bound to award grants
to the applicants ranked highest in the peer review process. Flores also
stated, “While some may disagree with my [award] decisions, they were
made in accordance with the law, within Department rules, and in good faith
to address the needs of our children who find themselves in the juvenile
justice system or at risk of contact with it.”

       However, in view of the allegations that personal contacts and ties
may have improperly influenced his award decisions, we requested from
Flores documents showing why he recommended the World Golf Foundation,
the Best Friends Foundation, and Victory Outreach for awards. Flores told us
that, except for recommendation memoranda he provided to the Assistant
Attorney General, he did not maintain any documents to support his
decisions and reiterated his reasons for these award recommendations. In
addition, Flores denied that any personal contacts or interactions played any
role in his recommending respective awards to the World Golf Foundation,
the Best Friends Foundation, and Victory Outreach.

World Golf Foundation

      Flores testified that he recommended the World Golf Foundation for an
award in part because the organization ran a nationwide program that had
evaluations conducted by the Universities of Virginia, Nevada-Las Vegas, and
Arizona that showed the program effectively engaged and taught at-risk
children important life skills, such as honesty and commitment. Flores said
that he believed some criticized this grant because they were not aware that
World Golf’s First Tee program used golf as an instruction tool and was not
intended to “make golfers of youth participants.”




                                     45
       During his testimony, House Oversight Committee members discussed
a golf outing Flores had with World Golf Foundation representatives. The
round in question occurred when Flores spoke at the First Tee program’s
2006 annual meeting. The meeting’s agenda included a golf outing on the
last day and Flores stated that World Golf asked him to participate the night
before. Flores also told the Committee that he tried to pay for the round,
but that World Golf officials told him they would send him an invoice. Flores
stated that he followed up with the invoice request and paid $159 in golf
fees the day before he testified to the House Oversight Committee. 47

      We questioned Flores whether his contacts with World Golf led him to
recommend that this organization receive an award. Flores denied any
connection between his World Golf award recommendation and what he
considered to be limited contacts with this group. Flores told us that World
Golf received an award recommendation because their proposed program
had demonstrated success at applying golf as “a hook” to capture the
interest and involvement of at-risk youth that may not have participated in
other OJJDP programs.

Best Friends Foundation

      Media outlets reported that Flores had multiple contacts with officials
with the Best Friends Foundation, including attending a $500-a-plate

       47
           The OIG Investigations Division conducted an investigation into various
allegations concerning Flores, including the allegation that Flores did not pay for the round
of golf he played with World Golf officials. Flores acknowledged to the OIG playing golf with
World Golf Foundation officials at the First Tee Annual Meeting in February 2006 while
attending the conference as a guest speaker on behalf of OJJDP. The OIG determined that
the First Tee conference was sponsored by the World Golf Foundation, which as noted above
was one of the organizations that received an OJJDP discretionary grant award in FY 2007
that drew criticism on the ground that improper factors influenced Flores’s award
recommendation decisions. World Golf, through its First Tee Initiative, had also received
“earmarked” - legislatively directed - grants from OJJDP each year from FY 2003 to FY
2006. Federal regulations prohibit government employees from accepting from a prohibited
source gifts in excess of $20 (see Accepting Gifts, 5 CFR 2635.202–204). A prohibited
source includes persons and entities that do business or seek to do business with the
employee’s agency. The OIG investigation concluded that Flores violated these regulations
in connection with his round of golf with World Golf officials. World Golf’s First Tee Initiative
was an OJJDP grantee at the time Flores participated in the golf outing and thus a
prohibited source. Although Flores ultimately reimbursed the World Golf Foundation for the
$159 cost of the round of golf, he did not make this payment until more than 2 years after
the event and on the day before his congressional testimony. Moreover, he did not pay for
the round until almost a year after he had taken action that benefitted the World Golf
Foundation by recommending it for a grant in FY 2007. While the investigation could not
conclude that the round of golf with World Golf officials affected Flores’s decision to
recommend World Golf for an award, the OIG concluded that his actions violated federal
ethics rules relating to the acceptance of gifts.

                                               46
fundraising event for the organization in April 2007, before grant selections
were finalized. 48 We reviewed OJP records regarding this event and found
this group had received grants in prior years.

       Regarding his FY 2007 award recommendation for Best Friends, Flores
said that he wanted to provide a grant to this organization because it did a
“tremendous job” at keeping girls in school and away from illegal drugs.
Flores testified that, as a policy decision, he wanted to focus on a program
for girls because the arrest rate for juvenile females appeared to be rising
while the arrest rate for juvenile males was declining. Flores also indicated
that the Best Friends Foundation demonstrated remarkable success in this
area and cited that its program in Washington, D.C. reported a 100 percent
high school graduation rate for its participants. Flores stated that his critics
were upset with the Best Friends Foundation award simply because its youth
programs are abstinence-based.

       OJP documents showed that the Best Friends Foundation invited Flores
and his staff to attend its fundraiser and waived the $500-donation
requirement. Because of this waiver, Flores treated the invitation as a
potential gift and requested permission to attend the event from OJP’s Office
of General Counsel. The General Counsel’s office approved Flores’s and his
staff’s attendance, stating that the fundraiser appeared to be a “widely
attended gathering” of over 100 people and therefore was an exception to
the gift rules. The General Counsel’s office also stated that Flores’s
attendance at the fundraiser would “advance the government’s interest” in a
way that outweighed an impression that his attendance would “improperly
influence [OJJDP’s] decision process.”

      We asked Flores whether his meetings with Best Friends officials or his
attendance at the fundraiser led him to recommend that this organization
receive an award. Flores told us that his contacts with Best Friends
Foundation were similar to those he had with many other organizations as
OJJDP Administrator. Flores also said that his contacts with Best Friends
Foundation did not play a role in providing this organization an OJJDP award.
Flores said that, as a policy decision, he wanted to provide an award to
address the relationship between teenage pregnancy and high school
dropout rates. Flores said he recommended the proposal for an award
because Best Friends Foundation based its National Juvenile Justice
Programs proposal on an initiative that had documented success at keeping
teenage girls in school and from getting pregnant.


      48
         Boyle, Patrick, “The Case Against Flores,” Youth Today, June 19, 2008,
http://www.youthtoday.org/publication/article.cfm?article_id=1954 (accessed June 23,
2008).

                                           47
Victory Outreach

       We also asked Flores why he recommended Victory Outreach, a non-
profit faith-based organization, for an OJJDP award. According to the initial
allegation, Victory Outreach hired a contractor that was once an associate
director with the White House’s Office on Faith-Based and Community
Initiatives. Documents obtained by the House Oversight Committee showed
that an official with the DOJ’s Task Force on Faith-Based Initiatives sent an
e-mail in March 2007 to OJJDP recommending that Flores or his staff meet
with Victory Outreach’s contractor to discuss their work and future funding
opportunities.

      According to Flores, his meeting with Victory Outreach’s contractor
was not out of the ordinary. Flores emphasized that he met with
representatives from all sorts of juvenile delinquency organizations that
applied for OJJDP awards. Flores denied that the referral from the DOJ’s
Task Force on Faith-Based Initiatives played any role in his recommending
that Victory Outreach receive an award. Instead, Flores said the
organization’s proposal goals aligned well with DOJ and Presidential priorities
because, as a faith-based organization, Victory Outreach’s program was to
target youth most at risk in being involved in violent gang activity.

Role of Peer Review Scores in Recommending OJJDP Awards

      To assess whether Flores’s interactions with World Golf, the Best
Friends Foundation, or Victory Outreach may have led to these groups
receiving National Juvenile Justice Programs awards, we asked Flores if he
used peer review results to select the most worthwhile proposals for OJJDP
awards. Flores stated that he did not recommend grants based only on their
peer review score. Flores told us that he used peer review rankings to focus
his own subsequent review of the proposals. Flores said that if a proposal
was ranked high, he considered whether he thought the application should
be supported with OJJDP funds. Flores said that in addition to peer review
scores, he also considered the following questions when making his final
award recommendations:

   •   Does the proposal overlap a current OJJDP program?

   •   Does the proposal address an ongoing need of the juvenile justice
       field?

   •   Does the proposal include a reasonable or realistic budget?


                                      48
   •   Does the proposal require OJJDP support to succeed?

   •   Does the proposal include tangible performance outcomes?

   •   Does the proposal help achieve a Presidential initiative for juvenile
       justice or delinquency prevention?

       Flores told us that he believed peer review scores should not alone
determine which organizations receive competitive awards because peer
reviews do not always assess such factors. In addition, Flores stated that
individual peer reviewers did not: (1) assess all grant applications;
(2) consider whether OJJDP has other funding opportunities to support the
proposed program; (3) supersede the OJJDP Administrator’s statutory
authority to identify and select the most worthy OJJDP award recipients; or
(4) rank proposals on whether they could accomplish their objectives
without additional OJJDP support in subsequent fiscal years.

      The following summarizes Administrator Flores’s rationale behind each
of these points.

Individual Peer Reviewers Do Not Assess All Applications

      Flores told us that as the OJJDP Administrator, he believes he is in a
better position than a peer reviewer because individual peer review panels
do not assess the entire proposal universe. For example, the National
Juvenile Justice Programs solicitation and the Mentoring solicitation received
104 and 237 applicants, respectively. Each peer review panel was assigned
about seven or eight proposals to assess. Consequently, no single peer
review panel read or considered more than a small selection of the total
applications. Flores said that his access to peer review notes and scores,
coupled with application summaries provided by OJJDP staff, provided him
uniquely with information to assess the “larger picture” of the proposal
universe and identify the most interesting and worthy proposals.

Peer Reviewers Do Not Consider Other OJJDP Solicitation Opportunities

       Flores stated that peer reviewers only assess proposals grouped by
solicitation. He said that peer reviewers therefore do not consider whether
other solicitations presented viable funding opportunities to each specific
proposal.




                                       49
      Flores also noted that the broadly written National Juvenile Justice
Programs solicitation generated many proposals that could have received
grants under other OJJDP grant programs. For example, an applicant
seeking resources to support efforts to reduce juvenile system recidivism
could have applied for funds under both National Juvenile Justice Programs
and Reentry. In such instances, Flores stated that he believed awarding a
National Juvenile Justice Programs grant meant that less money would be
available for other initiatives that were not also funded by other programs.
Flores said that while he considered peer review results, he bypassed
proposals that would be eligible to receive funding under other ongoing
OJJDP solicitations.

      A review of the projects awarded grants under the National Juvenile
Justice Programs solicitation generally supported Flores on this point. Of the
11 awardees, 10 proposals had objectives that did not clearly align with
those of other OJJDP competitive solicitations offered at the same time. 49
We confirmed that, with only one exception, Flores recommended awarding
grants to proposals that could not have received funding from DOJ grant
programs other than the National Juvenile Justice Programs.

Administrator Authority Supersedes Peer Review Scores

       Flores stated that while the peer review process in FY 2007 generally
did a good job at providing him lists that ranked worthwhile proposals, he
believed that peer review results should not bind the Administrator or the
Assistant Attorney General in identifying projects worthy of OJJDP awards.
Flores said that as a Presidential appointee he considered it his duty to be
cognizant of and carry out Presidential and other Administration priorities.
Flores emphasized the Presidential initiative to encourage faith-based
organizations to apply for federal support programs such as juvenile and
family mentoring. Flores said that as OJJDP Administrator, he devoted much
of his time speaking to faith-based groups at national and regional
conferences to encourage them to apply for OJP awards. 50




       49
          All National Juvenile Justice Programs awards aligned with one or more of the
program’s announced objectives. The only National Juvenile Justice Programs award we
determined could have been funded under another solicitation was the $750,000 award to
Enough is Enough. In this instance, the program objectives also aligned with the objectives
announced by the Project Safe Childhood solicitation.
       50
         E.O. 13279 (2002) precludes federal agencies from discriminating against faith-
based and community organizations from competing for federal funds.


                                            50
      Flores told us that he wanted to ensure that at least some faith-based
groups received OJJDP support. He said he therefore recommended Victory
Outreach’s proposal, which was ranked 42 of 104, for a National Juvenile
Justice Programs award, and Messiah College’s proposal, which was ranked
84 of 237, for a Mentoring Initiatives award, in part because each ranked
among the highest proposals put forth by faith-based organizations.

Peer Reviewers Do Not Assess Whether Proposals Would Require Continued
OJJDP Support

      Flores explained that in normal fiscal years, earmark requirements
comprised the majority of OJJDP discretionary funds and prevented many
non-earmarked award recipients from receiving supplemental grants or
continuation awards. Flores told us that peer review results did not consider
the unique aspect of the FY 2007 funding process, particularly because
OJJDP had no earmarks and any organization that received awards may not
be able to receive another award or continuing support in subsequent fiscal
years.

       Flores told us that when making his award recommendations, he
anticipated enhanced earmark activity in the next few fiscal years and that
that peer reviewers did not consider these potential funding constraints
when evaluating proposals. For example, Flores said he believed that it
would not be worthwhile for OJJDP to begin supporting a new juvenile youth
center or other capital projects because OJJDP could not provide continued
or additional funding if such programs proved an initial success. Flores told
us that as a result he excluded proposals if they risked requiring OJJDP
support for more than one fiscal year, even those ranked high by peer
reviewers.

Lack of Evidence for Award Recommendations

      Although the Juvenile Justice and Delinquency Prevention Act does not
require that the OJJDP Administrator base award recommendations on peer
review scores, we are concerned about the lack of documentation that Flores
and OJJDP was able to provide in support of his award recommendations.
OJJDP devoted considerable resources – over $500,000 in FY 2007 alone –
to pay for external peer reviews that assessed competitive grant proposals.
In our opinion, because of this considerable allocation of funds: (1) Flores
should have documented reasons for his specific award decisions, and
(2) OJP and OJJDP should have ensured that the peer review process was
transparent and played a significant factor in award decisions.




                                     51
      As the official charged with coordinating federal juvenile justice efforts,
Flores regularly worked with groups that helped troubled youth and their
families. At a minimum, this work included attending presentations for new
programs, speaking at conferences, and attending fundraisers. Because of
these efforts, Flores had contacts with juvenile justice officials, some of
whom had worked with organizations that sought OJJDP competitive awards.

       However, neither OJP nor OJJDP maintained documents to show that
groups received awards based on objective reasons rather than individual
contacts with Flores, or in response to pressure from outside individuals or
groups. Therefore, we could not assess whether Flores appropriately used
his discretion as OJJDP Administrator to make these decisions or whether
Flores inappropriately recommended awards based on his contacts or ties
with representatives from these groups.

Award Recommendation Memoranda

      Senior OJJDP staff consolidated Flores’s various award
recommendations into an award recommendation memorandum for each
program solicitation. These recommendation memoranda were prepared for
Assistant Attorney General Schofield’s review and approval. The
recommendation memoranda: (1) listed the organization recommended to
receive an award; (2) summarized the objectives of each award; and
(3) documented the amount of funding that each organization should
receive.

       Flores’s recommendation memorandum for National Juvenile Justice
Programs awards, dated July 20, 2007, differed from the other
recommendation memoranda because it listed recommended organizations
by “priority areas” under each National Juvenile Justice Programs objective.
In the memorandum, Flores wrote, “In the OJJDP Administrator’s
recommendation of awards listed below, the OJJDP identifies his [sic]
primary priority areas included under these categories as the justification for
the listed grant applications.” Attached to the award memorandum was a
listing of peer review results by National Juvenile Justice Programs objective
and Administrator priority area. Exhibit 5-3 compares these priority areas to
the requirements listed under each National Juvenile Justice Programs
solicitation objective. 51




      51
         Flores’s award recommendation memorandum for the National Juvenile Justice
Programs is included as Appendix 6.


                                         52
        EXHIBIT 5-3 COMPARISON OF NATIONAL JUVENILE JUSTICE PROGRAMS SOLICITATION
                            REQUIREMENTS AND PRIORITY AREAS

                       BOX 1: SOLICITATION                                             BOX 2: RECOMMENDATION MEMORANDUM

 Category 1: Building Protective Factors to Combat Juvenile             Category 1: Building Protective Factors to Combat Juvenile
 Delinquency. Requirements included:                                    Delinquency. Flores listed the following priorities:

 A. Provide youth opportunities to use their time in a positive             A. Training and technical assistance for the juvenile court system.
    manner through education, employment, community service,
                                                                            B. Prevention and Intervention directed and [sic] high risk youth
    sports, and art;
                                                                               through positive youth development methods and practices,
 B. Build on the strengths of children and their families; and                 including utilizing:
 C. Address special populations such as at-risk girls, tribal youth,           1.     Mentoring outreach efforts directed at Latino high-risk
    and youth in the juvenile justice system with mental health                       youth;
    problems.
                                                                               2.     Sports-based outreach efforts directed at high-risk youth;
                                                                                      and
 Category 2: Reducing Child Victimization. Proposals should                    3.     School-based outreach efforts directed at preventing high-
 address the following:                                                               risk activity (out-of-wedlock pregnancy)

 A. Internet safety;
 B. Commercial sexual exploitation of children; and                     Category 2: Reducing Child Victimization. Flores listed only one
                                                                        priority: addressing Internet safety
 C. Child abuse and neglect.


                                                                        Category 3: Improving the Juvenile Justice System. Flores
 Category 3: Improving the Juvenile Justice System. Proposals           included the following priorities:
 should address:
 A. Disproportionate minority contact and improve juvenile detention                A. Multi-sector used [sic] data;
    and corrections system;                                                         B. Ensure safe and appropriate conditions of confinement;
 B. The operation of the juvenile court system;                                        and

 C. The court’s handling of abuse and neglect cases; and                            C. Target efforts directed toward foster care youth.

 D. The collaboration between the child welfare system and the
    juvenile justice system.                                           Source: Recommendation memo dated July 20, 2007

Source: NJJP solicitation



                                                                       53
       Exhibit 5-3 shows that the priority areas Flores listed in the National
Juvenile Justice Programs recommendation memorandum did not match the
sub-objectives under each category listed in the grant program’s competitive
solicitation. For example, under the “Building Protective Factors” category,
the solicitation called for three general requirements, including efforts to
build on the strengths of children and their families. However, the priority
areas referenced in Flores’s memorandum did not list such a requirement.
Similarly, the solicitation requested that proposals address “special
populations” such as at-risk girls, tribal youth, and youth in the juvenile
justice system with mental health problems. Although the Administrator’s
priority areas included efforts to prevent out-of wedlock pregnancies, specific
solicitation sub-elements such as tribal youth and youth with mental health
problems were not listed as priority areas by Flores.

       We believe that Flores’s presentation of recommended proposals by
priority areas in the National Juvenile Justice Programs recommendation
memorandum made it appear that the proposals he recommended for
funding had received higher-ranking peer review scores than they actually
did. For example, the peer reviewers ranked the World Golf Foundation and
the Best Friends Foundation proposals 47 and 53, respectively, of 104 grant
proposals. Flores’s memorandum, however, stated that the applications
received “the highest score that met the criteria under the Administrator’s
priority area.” This presentation gave the impression that these proposals
ranked at the top of their respective categories when, in fact, other
proposals received scores that ranked them higher in each respective
category. 52

       Schofield told us that when she read the memorandum and approved
the National Juvenile Justice Programs awards, she believed that the
memorandum priority areas were the same as those outlined by the grant
program’s competitive solicitation. Schofield stated that if she knew the
priorities were different from the solicitation requirements, she would not
have approved Flores’s award recommendations. Moreover, a senior OJJDP
official told us that his staff had never heard of Administrator “priority areas”
while they were conducting peer reviews of the National Juvenile Justice
Programs proposals.



       52
          For example, the highest-ranked proposals recommended under the National
Juvenile Justice Program’s first category, entitled “Building protective factors to decrease
juvenile delinquency,” were those submitted by the National Juvenile Court Services
Association, which was ranked 4 of 42 category proposals (7 out of 104 proposals overall),
and the Latino Coalition for Faith and Community Initiatives, which was ranked 14 of 42
category proposals (26 of 104 proposals overall).

                                             54
       During his June 19, 2008, testimony to the House Oversight
Committee, Flores discussed the role his priority areas played in
recommending awards. Flores testified that he did not intend to create new
criteria, and he merely provided descriptions of grants he chose to award
under the categories listed in the solicitation. Similarly, when we discussed
the memorandum with Flores, he told us he simply used the primary
solicitation categories as a means to sort out the various proposals for his
review. The resulting “priority areas” were then defined from the
categorized proposals that he recommended for awards after his review.

       While the Administrator had the authority to identify priority areas he
wanted to support with OJJDP funds, we believe that Flores should have
clearly distinguished between his personal “priority areas” and the explicit
requirements of the grant solicitation in his award recommendation
memorandum to Schofield.

Associate Attorney General Policy to Document Award Decisions

      In May 2008, Associate Attorney General Kevin O’Connor issued a
memorandum directing the OJP Assistant Attorney General to document all
discretionary funding recommendations and decisions. Under the policy,
future award recommendations memoranda must:

    •   Contain a list of all applications received that includes the lowest
        scoring application funded as well as every application scoring
        higher, regardless of whether it was selected for funding;

    •   Briefly explain why a listed application was not recommended for
        funding; and

    •   Only categorize selections by categories published in the original
        program solicitation.

      O’Connor told us that in developing these new requirements he was
concerned that OJP and other relevant DOJ components did not always make
or maintain the records necessary to justify award selections. O’Connor said
he issued the policy in part to ensure that OJP documents its reasons for
selecting certain proposals over others. The policy allows OJP bureaus and
program offices to exercise discretion when awarding competitive grants.
However, the policy also requires each bureau or program office to list
reasons for not funding proposals with high-ranking peer review scores.




                                      55
O’Connor also told us he believed the policy helps protect decision makers
from accusations regarding improper awards decisions. 53

       We discussed OJP’s progress in implementing this new policy with
OJP’s Deputy Assistant Attorney General Beth McGarry. According to
McGarry, OJP has changed its recommendation memoranda format to
require that each bureau or program office provide reasons when low scoring
applications are recommended over higher-scoring ones. In addition, the
Office of the Assistant Attorney General for OJP is now archiving copies of
each submitted bureau or program office recommendation memoranda by
solicitation.

       In our opinion, the Associate Attorney General’s policy requiring
justification of award recommendations addresses many of the concerns
about documenting these award decisions. However, to ensure that OJJDP
recommendation letters only list award recommendations by the same
criteria announced by the solicitation, we recommend that OJP require that
OJJDP attach a copy of the program solicitation when it submits a
recommendation memorandum for approval to the Assistant Attorney
General.

Conclusion

       For FY 2007 awards, OJJDP employed a grant approval process
whereby the Assistant Attorney General for OJP approved all OJJDP
Administrator award recommendations. Flores stated that he considered the
peer review results and other factors when he made award
recommendations. For example, Flores said he wanted to ensure that
organizations that addressed Presidential priorities, such as faith- and
community based initiatives, received OJJDP support. For the National
Juvenile Justice Programs, Flores made recommendations grouped by
“priority areas” that he devised instead of by the requirements in the grant
solicitation. This had the effect of increasing confusion by making it appear
that the proposals he recommended for funding had received higher-ranking
peer review scores than they actually did.




      53
          A copy of the Associate Attorney General’s May 2008 policy memorandum can be
found at Appendix 7.

                                          56
      While no law or regulation required peer review results to be the sole
determinant of OJJDP grant awards, we believe the Administrator should
have documented the reasons for selecting lower-ranked proposals over
those ranked higher. The Administrator’s recommendation memoranda only
included details and summaries on programs that were recommended for
awards and not the reasons why the proposals were selected over others.

      In our opinion, the May 2008 policy instituted by the Associate
Attorney General does much to address concerns regarding documenting the
reasons supporting competitive award selections. However, because the
Assistant Attorney General approves all OJJDP awards, OJP should ensure
that the Assistant Attorney General is clearly aware of solicitation elements
when approving OJJDP award recommendations.

Recommendation

We recommend that OJP:

  9.    Require that OJJDP attach a copy of the program solicitation when
        it submits a recommendation memorandum for approval to the
        Assistant Attorney General.




                                     57
                   STATEMENT ON COMPLIANCE
                  WITH LAWS AND REGULATIONS

       As required by the Government Auditing Standards, we tested, as
appropriate given our audit scope and objective, selected transactions,
records, procedures, and practices, to obtain a reasonable assurance that
officials with the Office of Justice Programs (OJP) and the Office of Juvenile
Justice and Delinquency Prevention (OJJDP) complied with federal laws and
regulations, for which noncompliance, in our judgment, could have a
material effect on the results of our audit. OJP and OJJDP officials are
responsible for ensuring compliance with federal laws and regulations. In
planning our audit, we identified the following laws and regulations that
concerned OJP and OJJDP operations we believe are significant within the
context of our audit objectives:

   •   Omnibus Crime Control and Safe Streets Act of 1968, as amended,
       42 U.S.C. § 3711 et seq.; and

   •   Juvenile Justice and Delinquency Prevention Act of 1974, as amended,
       42 U.S.C. § 5611 et seq.

       Our audit included examining, on a test basis, OJP and OJJDP
compliance with the aforementioned criteria that could have had a material
effect on the operations of these organizations by interviewing OJP and
OJJDP officials and employees and examining the procedures used to solicit,
review, and select grant proposals for awards.

     Nothing came to our attention that caused us to believe that OJP and
OJJDP did not comply with the aforementioned laws and regulations.




                                      58
              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objective. A deficiency in an internal control exists when the design or
operation of a control does not allow managers or employees, in the normal
course of performing their assigned functions, to prevent or detect in a
timely fashion: (1) impairments to the effectiveness and efficiency of
operations; (2) misstatements in financial or performance information; or
(3) violations of laws and regulations. We did not evaluate the internal
controls used by the Office of Justice Programs and the Office of Juvenile
Justice and Delinquency Prevention to provide assurance on their internal
control structure as a whole.

     Our audit did not identify additional internal control deficiencies
beyond those identified in our report.




                                      59
                       ACRONYMS

BMR       Basic Minimum Requirements
DOJ       Department of Justice
GMS       Grants Management System
JJRC      Juvenile Justice Resource Center
JMD       Justice Management Division
NJJP      National Juvenile Justice Programs
OIG       Office of the Inspector General
OJJDP     Office of Juvenile Justice and Delinquency Prevention
OJP       Office of Justice Programs
OMB       Office of Management and Budget
Pub. L.   Public Law
U.S.C.    United States Code




                            60
                                                                           APPENDIX 1

              OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

       The Department of Justice Office of the Inspector General (OIG)
conducted this audit to review the Office of Justice Programs (OJP) and the
Office of Juvenile Justice and Delinquency Prevention (OJJDP) policies and
procedures for soliciting, assessing, and awarding $113 million in Part E and
Juvenile Mentoring Program discretionary grant funds during FY 2007. 54 We
focused our review on funds OJJDP awarded for its discretionary Part E and
Juvenile Mentoring grants since private organizations, as well as state and
local governments, were eligible to receive funding for these programs.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our conclusions based on our audit objective.

     We considered how OJJDP announced, assessed, and awarded funds
under the following Part E and Juvenile Mentoring programs.

            FY 2007 OJJDP DISCRETIONARY AWARD PROGRAMS
               1. National Juvenile Justice Programs
               2. Prevention and Intervention Program
               3. High-Risk Youth Offender Reentry and Family Strengthening
                  Initiative Program
               4. Project Safe Childhood Program
               5. Substance Abuse Prevention and Intervention Program
               6. Mentoring Initiatives (Mentoring)




       54
           Discretionary grants are awards made to state, local, and tribal governments, and
public and private agencies. Discretionary grants are not based on predetermined formulas
or other statutory requirements.

                                            61
     We reviewed the specific procedures and results of the National
Juvenile Justice Programs and Mentoring Initiatives (Mentoring) program.
We selected these two major programs because OJP invited certain
organizations to receive grants for these programs while requiring other
organizations to submit proposals to compete for funds. Selecting NJJP and
Mentoring also enabled us to review both internal and external peer review
procedures.

       Our audit scope generally encompassed OJP and OJJDP activities that
occurred between January 2007 and September 2008, with a focus on
activities involving OJJDP Part E and Juvenile Mentoring awards announced
in September 2007. To understand how OJJDP used its external peer review
contractor during the scope of our audit, our analysis of OJJDP’s external
peer review process included details of peer review work orders dated prior
to the scope of our audit.

      We conducted fieldwork and interviewed OJJDP, OJP, and DOJ officials
and other relevant personnel. Our review included discussions with those
charged with overseeing OJJDP’s award process, including OJJDP
Administrator J. Robert Flores, former Assistant Attorney General Regina B.
Schofield, and Associate Attorney General Kevin O’Connor. Since our review
focused on the process OJP and OJJDP used to solicit, assess, and award
grants, we did not evaluate or seek to evaluate the individual merits of
programs and projects recommended by the OJJDP Administrator or
approved to receive an award by the Assistant Attorney General for OJP.
Furthermore, since OJP did not provide documentation showing why certain
organizations were invited to receive OJJDP awards, we could not
independently evaluate the rationale for making individual invitational
awards.

     We obtained what we believe to be necessary and sufficient
documentation to achieve our audit objective. In addition, we obtained and
assessed information provided by OJP under a subpoena issued by the U.S.
House of Representatives Committee on Oversight and Government Reform.

       Throughout the audit, we relied on computer-generated data to obtain
necessary information about grant proposals and awards from OJP’s Grant
Management System and copies of correspondence between OJP and OJJDP
officials. We also relied on electronically derived information obtained from
the Grants.gov system to conduct our analysis of application submissions.
Although we did not assess the reliability of such computer-derived
information, we do not believe our reliance on this data affects our findings
and recommendations.


                                     62
       We identified and reviewed internal policies and manuals pertaining to
the grant-making process, including the OJP Grant Manager’s Manual and
OJJDP Peer Review Guidelines, and other applicable DOJ directives and
orders. We also reviewed peer review scores, grant applications, award
files, applicable correspondence among OJP staff, and relevant congressional
testimony. We also obtained and reviewed grant proposal review guidelines
from the Department of Health and Human Services and the National
Science Foundation.

      In addition, we reviewed OJP’s amended blanket purchase agreement
number 2003-BF-028, which called on the Juvenile Justice Resource Center
to coordinate and conducting OJJDP’s external peer reviews. We reviewed
the Juvenile Justice Resource Center agreement and associated
modifications to the contract and found that $154,684 in OJP funds
remained obligated to task orders issued under this agreement. We also
reviewed and analyzed the OJP contract number 2007-TO-07027 to assess
how OJP conducts external peer reviews since the scope of our audit.




                                     63
                                                                              APPENDIX 2

              SCHEDULE OF DOLLAR-RELATED FINDINGS

                                                                                  Page
               Dollar-Related Finding                         Amount ($)         Number

    Funds To Be Put To A Better Use:*

       Deobligate remaining funds from expired
       blanket purchase agreement number
       2003-BF-028                                                  154,684          38

    TOTAL DOLLAR-RELATED FINDINGS:                               $154,684




*
     Funds to be put to a better use are monies that could be used more efficiently if
     management took actions to implement and complete audit recommendations.




                                              64
                                                              APPENDIX 3

            FY 2007 OJJDP GRANT SOLICITATIONS

       During FY 2007, OJJDP announced 20 competitive solicitations, 9
solicitations where applicants were invited to receive new and continued
funding, and 5 announcements for states, local, and tribal governments to
receive funds under block or formula grants.

Competitive Announcements

  1.    Building ICAC Forensic Capacity
  2.    Expansion and Maintenance of the Model Programs Guide
  3.    Family Drug Courts Program
  4.    Field Initiated Research and Evaluation Program
  5.    Gang Prevention Coordination Assistance Program
  6.    High-Risk Youth Offender Reentry and Family Strengthening
        Initiatives
  7.    Internet Crimes Against Children Expansion
  8.    Internet Crimes Against Children Expansion Phase II
  9.    Internet Crimes Against Children Expansion – Urban Phase III
  10.   Juvenile Sex Offender Treatment Program Development and
        Capacity Building
  11.   Juvenile Drug Courts/Reclaiming Futures
  12.   National Juvenile Justice Programs
  13.   Nonparticipating State Program, Wyoming
  14.   Prevention and Intervention Programs
  15.   Project Safe Childhood Programs
  16.   Substance Abuse Prevention and Intervention Programs
  17.   Support for Mentoring Initiatives Solicitation
  18.   Tribal Youth Program
  19.   Tribal Youth Program Training and Technical Assistance
  20.   Tribal Youth Program’s Juvenile Accountability Discretionary Grants



                                     65
Invitational Announcements

  1.   Child Protection Division Solicited Programs
  2.   Court Appointed Advocates Program
  3.   Demonstration Program Division Continuations
  4.   Internet Crimes Against Children Continuations
  5.   Juvenile Drug Courts Program Evaluation
  6.   National Center for Missing and Exploited Children Program
  7.   National Solicited Juvenile Justice Programs
  8.   Solicited Mentoring Programs
  9.   Victims of Child Abuse Program


Block or Formula Grant Announcements

  1.   Enforcing Underage Drinking Laws Block Grant Program
  2.   Carryover from FY 2006 Program
  3.   Juvenile Accountability Block Grants Program
  4.   Title II Formula Grants Program
  5.   Title V Community Prevention Grants Program




                                   66
                                                                APPENDIX 4

             GRANTS.GOV REGISTRATION PROCESS

      According to the Grants.gov website, prospective applicants usually
require less than five days to obtain a Grants.gov account. Organizations
that have not used Grants.gov before are first required to obtain a Data
Universal Number System (DUNS) number to access the registration screen.
To acquire a DUNS number, the applicant had to register their organization’s
name with the independent contractor Dun & Bradstreet (contractor).
According to Grants.gov officials working at the U.S. Department of Health
and Human Services, it takes about one business day for the applying
organization to receive a generated DUNS number.

      After obtaining a DUNS number, the contractor provides the applicant
access to a registration module maintained by the Central Contract Registry
(CCR), which Grants.gov uses to identify grant applicants. The CCR is a
government-wide vendor registration list of all organizations, including grant
recipients, which receive money for services provided to the federal
government. A Grants.gov official told us that the CCR registration process
normally takes up to three business days.

      Applicants can only receive a Grants.gov username and password after
the CCR registration is completed. When setting up the Grants.gov account,
applicants must designate a specific individual as the organization’s official
point of contact. Once designated, the point of contact is provided access to
the account and can submit applications on behalf of the entire organization.




                                     67
                                                                         APPENDIX 5

              APPLICATIONS SUBMITTED AFTER THE OJP
                JULY 2, 2007, DEADLINE EXTENSION

                                                            Submission
                        Applicant Name                         Date        Solicitation
1    National Campaign to Stop Violence                     7/5/2007           NJJP
2    Drug Free Partnership, Inc.                            7/2/2007           NJJP
3    National Juvenile Court Services Association/NCJFCJ    7/5/2007           NJJP
     Aces for Kids/USTA Tennis and Education
4
     Foundation                                             7/5/2007           NJJP
5    Youth Department/Center for Dispute Settlement         7/5/2007           NJJP
6    Successfully You/Angela Mosley Monts                   7/5/2007         Mentoring
7    Brotherhood Crusade                                    7/5/2007         Mentoring
8    Westside Community Mental Health Center Inc            7/5/2007         Mentoring
9    Reality Mentor, Inc.                                   7/5/2007         Mentoring
     La Casa de San Gabriel Community Center/LEO
10
     Affiliates                                             7/5/2007         Mentoring
     Hollywood CPR/Hollywood Cinema Production
11
     Resources                                              7/5/2007         Mentoring
12   I Have A Dream Foundation/Boulder County               7/2/2007         Mentoring
13   National Congress of American Indians                  7/5/2007         Mentoring
14   Gift of Life House of Talent                           7/5/2007         Mentoring
15   Gachelin Associates LLC                                7/5/2007         Mentoring
16   Bolder Options                                         7/6/2007         Mentoring
17   Native American Children’s Association                 7/5/2007         Mentoring
18   Committed Partners for Youth                           7/5/2007         Mentoring
19   Awesome Amateur Boxing, Inc.                           7/5/2007         Mentoring
20   People for People Inc                                  7/5/2007         Mentoring
21   Creative Funding Solutions, Inc.                       7/5/2007         Mentoring
22   ConQor Community Development Corp                      7/6/2007         Mentoring
23   Avance, Inc.                                           7/13/2007        Mentoring
24   Big Brothers Big Sisters of the Peninsula, Inc.        7/5/2007         Mentoring
25   Mobius, Inc.                                           7/5/2007         Mentoring
     Treatment Services Programs/Indiana Juvenile
26
     Justice Task Force                                     7/5/2007          Reentry
27   Omega Alpha Club                                       7/5/2007          Reentry
     YOUR Center - Metropolitan Baptist Tabernacle
28
     Housing Development Center                             7/5/2007          Reentry
29   Lewis and Clark Behavioral Health Services, Inc.       7/5/2007          Reentry
30   Art Share Los Angeles                                  7/2/2007      Substance Abuse
31   Pensacola Faith Based Initiative Coalition, Inc        7/5/2007      Substance Abuse
32   Enough is Enough                                       7/5/2007      Substance Abuse
     Second Judicial District State of Louisiana District
33
     Attorney                                               7/2/2007      Substance Abuse

                                           68
                                                           Submission
                          Applicant Name                      Date        Solicitation
 34    Court Appointed Special Advocates of New Jersey     7/2/2007     Substance Abuse
 35    Eight Judicial District Court                       7/5/2007     Substance Abuse
 36    Boys and Girls Club of Lancaster, Inc.              7/5/2007     Substance Abuse
 37    Upper Cumberland Human Resource Agency              7/5/2007     Substance Abuse
 38    Phoenix Houses of Texas, Inc.                       7/5/2007     Substance Abuse
       Teens Empowerment Awareness with Resolutions
 39
       Inc                                                 7/5/2007           PIP
       Teens Empowerment Awareness with Resolutions,
 40
       Inc.                                                7/5/2007          PIP
 41    Drug Use is Life Abuse                              7/5/2007          PIP
 42    Team SAFE-T, Inc.                                   7/5/2007          PIP
 43    QEST Quality Education and Student Training         7/5/2007          PIP
 44    Girl Scouts Mile Hi Council                         7/5/2007          PIP
 45    Sullivan House                                      7/5/2007          PIP
 46    United Teen Equality Center                         7/5/2007          PIP
 47    IACSP Washington DC Group                           7/5/2007          PIP
 48    Alkebulan Village                                   7/5/2007          PIP
 49    Boys and Girls Club of America of Wilmington        7/5/2007          PIP
 50    Smith Rentals                                       7/9/2007          PIP
 51    Family and Children’s Association                   7/2/2007          PIP
 52    Vision Ed, Inc.                                     7/5/2007          PIP
 53    The Point Community Development Corporation         7/9/2207          PIP
 54    American Sail Training Education                    7/5/2007          PIP
 55    Williamsburg County Boys to Men Club                7/5/2007          PIP
 56    Safe City Commission, Inc.                          7/5/2007          PIP
 57    Avance, Inc.                                        7/13/2007         PIP
 58    Youth Empowerment Services                          7/5/2007          PIP
 59    Educational Service District                        7/5/2007          PIP
 60    Asian Counseling and Referral Service               7/5/2007          PIP
 61    National Exchange Club Foundation                   7/2/2007          PSC
Source: Application records maintained by OJJDP
Note: Applications ordered by solicitation announcement.




                                                69
                                                                                                                 APPENDIX 6

NATIONAL JUVENILE JUSTICE PROGRAMS AWARD
      RECOMMENDATION MEMORANDUM


  .•
  :
                                                            u.s. Depo            lent of Justice

                                                            Office of Justice Progrolms

                                                            Office of Ju~·t'IIiI~ Justice lind Delinquency Prew!IIti()f1


                                                            ",,,II/"xu,,,.D.c:.l{)JJI


                                                          JUL 202007
       To:              Regina B. Schofield
                        Assistant Attorney General
                        Office of Justice Programs

       From:       ~<t....
                        Robert Flo""
                  ( J\Administrator
                      Office of Juvenile Justice and Delinquency Prevention

       Date:           July 17,2007


      Re :            FY07 National Programs A ward Recommendations

      OVERVIEW

      OJ]DP received 104 applications under the FY07 National JllVenile Justice Programs
      Solicitation. This solicitation provided applicants the opportunity to apply under three primary
      categories related to juvenile justice. These categories as stated in the solicitation include: 1)
      Building Protcctive Factors to Combat Juvenile Delinquency; 2) Reducing Child Victimization;
      and, 3) Improving the Juvenile Justice System. In the OJJDP Administrator's recommendation
    of awards listed below, the O]JDP identifies his primary priority areas included under these
  . categories as the justification for the listed grant appliCations. The total amount of funding
    avaiJable to award under this solicitation is $8,650,000.

   THE REVIEW PROCESS

   OJJDP conducted an internal peer review, which included OJJDP career sta/f, of all 104
  applications received under the FY07 National Juvenile Justice Programs Solicitations. Peer
  reviewers were assigned to a peer review panel. There were total of 13 peer review panels, and
  each panel included two peer reviewers who were paired up. Their individual scores were
  averaged together. Scores for aU 104 appJications ranged tj:nm 98%.0%._

  The OJJDP Administrator selected applications from the top 20'/0. The OJJDP Administrator
  made this selection based on the combinatidn of peer review scores and peer review panel
  placement.




                                                        70
.'




       RECOMMENDATIONS

       Category I: Bulldln£: Protective Faclor, 10 Combat Juvenile Delinquency

       These include national scope program! to combat ju:venile delinquency by addressing risk factors
       and supporting positive youth development. The OJJDP Adminisb'ator's two primary priority
      areas under this category include: I) ImpJemenration afbest practices for the juvenile court
      system; and 2) PrcventionIJntcrvention directed at high risk youth.

      Training and Technical Assistance for the Juvc:nile Court System:

       lmplemenlation afbest practices requires a well trained professional staff within the juvenile
      justice system, especially where CTOllS..disciplinary work mu,t be done. Given the great amount
      oftumover among juvenile justice profe:lsional !taft'. it is important to support cost-effective
      methods to deliver quality instruction and increase professional development. AccOrdingly, the
      following 8W81d(s) will be m~e:

          J. GMS Dumber, 2007.S1108.MD..JL, Nc.JFCJlNat Juveaile Court ServicH
             Auoci.t:loa. S97,9001l year (score 95%). Will develop professionally-oriented
             alternative online training IIlld certification programs for juvenile justice supervisors
             based OD the "core competencie:l." This application received the highest score under this
             priority area.     .

     Preveutionllntemntion Directed and High Risk Youlb through Positive Youth Development
     Methods/Practices, Under this priority ares, the OJJDP Administrator used the following criteria
     in the selection of applications with a national focus on: I} uti/Iring mentoring outreach efforts
     directed al latino high-risk youth; 2) utilizing sports-band outreach efforts directed 01 high-risk
     youlh; and J) ulilizing schoo/-based outreach efforts dlrec/ed af preventing high-risk activity
     (o,ut-oC-wedlock pregnancy).

            Utilizing men/oring au/teach efforts directed at La/ina a/-risk youth. In recent years, the
            need to direct etrortll to Hispanic youth has become more evident in efforts to reducing
            disproportionate minority contact in the juvenile justice system IIlld rise'of Hispanic
            gangs. Reducing disproportionate minority contaet is a statutory mandate and a priority
            of OJJDP. Anti-gang efforts are an Attorney General priority.

           Many successful programs that are directed at high-risk youth tend to lack capacity, hsve
           not formalized their processes, and are difficult to replicate due (0 their lack of
           documentation. Continued efforts to build promising programs and best practices in the
           area of delinquency prevention, safety, and combating negative influences on children
           must be made. Accordingly. the following award(s) will be made:


                                                    2




                                                        71
'.



        1. GMS number,l007-5170IJ..CA..JL, Latino Coalition for Faitb &: COlJ'lllltulity
           Initiatives. S 1,200,000 million13 years (score 89.5%). This applicant will address
           the need to build capacity in the Latino community through faith and community
           organizations to address lhe needs of Latino children through menloring and other
           positive youth development initiatives. Using practical and effective approaches
           positive youth development opportunities will be provided to Latino youth, family
           strengthening will be laught, alternatives to gang involvement will be offered. and the
          "Reclaiming our Futures," program will be prepared for nationaJ replication. This
          program meets the Administrator's established priority of moving sound
          programming that directly benefits children to a best practices or promising practice
          level for future use by commu,nitics in need of such programming. This application
          ha9 the highest score that mel the criteria under the Administrator's priority area.

      2. GMS number, 2007·S1041-QR-JL. Victory Outreach Special Servicu.
         1,200,00013 years (score 84%). This program would provide direct services to
          Hispanic boys at high-ri.!lk of dclinqucncy in multiple areas, including family, school,
          peer.!l, and community and neighborhood factors. There i.!l a lack of programming that
         addres.!lcs the spccific needs of Hispanic boys that this eifol'! will improve.
         Additionally, as a 5 year program. it will address the need to prpvide programs to
         boys in eighth grade, a rime when boys arc at greater risk ofjoining or being
         victimized by gangs. This application has the highest score that met the criteria under
         the Administrator's priority area. This application has the second highest score that
         met the criteria under Administrator's priority area.

     3. GMS Dumber, 2007-S1423-DC-JL, Aspin AssocIation. 1,200,00013 year.!l (score
         83%). Nationally based organization dedication 10 the education and development of
         Latino youth; program will fOC1:1S on schools ~ low-income, inner city Latino
        communities and expand existing model of mentoring and parental engagement as a
        tool for combating juvenile delinquency. This application bas the third highest score
        that met the criteria under Administrator's priority area.

     Utilizing sports-based outreach efforts directed at high-risk youth. Using sports as a
     method of outreach to high-risk youth for delinquency provides a means of engaging and
     attracting youth to an area of popular interest to kids.

     I. GMS number, 2007·51l13-FL-JL, World GoU FouDdatioD, Inc., SOO,OOO/year
         (score 82%) Sports proiJ'llffiIDing continues to be a popular method of engaging youth
         in positive youth development. This applicant has made changes to its prognun to
        focus on increasingly higher risk children that have few positive activities to compete
        with gang recruitment, encourage school attendance or participation, and teach
        prosocial skills. Additionally, this program works to build a national teaching corp of
        volunteers which improves outcomes and supports sustainability since the teaching
        certificate take.!l at least two and often three years. This program has grown from

                                              3




                                                  72
.'




                 140,000 children in 2003. to 264, 000 children in 2006. This application has the
                 highest score that met the criteria under the admini$tllltor's priority area.

             Utilizing schoof-based outreach efforls directed or preveruing high-rId activity (out-of-
             wedlock pregnancy). OUI-oC-wedlock teenage births pose as one of the highest risle
             Cactors for girls to become a delinquent juvenile.

              I. GMS Dumber, 2007-SJ6-79-DC..JL, ~ut Friends Foundation 1,124.000/Jyears
              (score 79.5%). Programs directed at teaching girls how 10 identify and resist high risk
              activities IIl'e limited and do not direclly address abstinence. This program works directly
             with girls through a school based curriculum that eJlc()uragcs school performance and
             attachment. a strong protective factor. Best Friends has also added a boy! program and
             together they also work to address gang activity in the schools, an AG priority, This
             direct service program that is present in Houston. Martinsville, San Diego, Piusbw-gh,
             Hempstead. Ibiupplicatjon has thclUahest score that met the criteria under the
             ttdminimat~pri2ri1~


      Catecory 2; Redudnc Child YictimlZlltiQn

     This Category supports national' scope programs tnat reduce child victimization. OJJDP
     Administnltor's primary priority area under this category is'addressing internet safety, that
     includes providing parental and community education on how 10 protect children from being
     victims of on-line predators.                                             .

         1. GMS Dumber, 2007.S168S-VA-JL, EDough is EBough, 750,000/3 years (score 87.5%).
            This program addresses OJJDP's need to work on the prevention of child victimization
            facilitated by computer as it continues to expand the investigative and prosecution efforts
           through the AG's Project Safe Childhood Initiative. This applicant has a natio~1 reach,
           Internet industry partners, programs and education for parents, and makes presentations
           to multiple audience3, from parents, students, and faith based and c6nununity
           organizatioru. This application received the highest score under this priority area.

     C.tee:ory 3: Improving the JuvepiJe Justice System

 This category supports national scope programs that improve the juvenile justi.cc system. The
 OJJDP Administrator is statutorily tasked with improving the coordination between the child
 welfare system and the juvenile justice system. Historically, these sy*ms have not always
 collaborated and infonnation from one system has been difficult to transport ioto the other. Best
 practices in this area arc limited and eiforts to develop promising techniques are necessary 10
 provide models that would be applicabJe nationwide. Therefore, The OIJDP Administrator's
 primary priority areas under this category includes: I) Multj·sector used Data; 2) Ensure Safe


                                                    4




                                                        73
  and Appropriate Conditions of confinement; and. 3) Targeted Efforts Directed Toward Foster
  Care Youth (who are among most vulnerable youth touched by the Juvenile Justice System).

  Multi-sector used Dala:

  OJJDP has a,statutory mission to collect and disseminate data and statistics thatlnfonn the field
  about juvenile justice trends, prognun efficacy, and conditions of confinement. In many states,
  the best data concerning system involved youth belongs to the juvenile courts. This data is
 useful to a broad array ofjuvenile justice professionaJs and because the court records contain
 infonnation from other systems provides 8 better picture in many areas than infonnation from a
 single other source. Accordingly, the following award(s) will be made:

      I. GMS dumber2007-50987-NV..JL, Nltionl' CouDcli of Juvenile IDd Family Court
         Judea . S510,0001l year (score 91.5%). The National Juvenile Court Data Archive
         project proposes to continue its long-lenn data development, collection and synthesis
         etrorts. A3 II.!I infonnation clearinghouse the project will continue to respond to requests
         from Federal. State, and loca.I agencies, the: media, researchers and the public for
         information and statistics on the activities ofjuvenile courts and other elements of the
        juvenile justice system. This grantee was the highest scoring applicant proposing to
        collect and disseminate sueh multi-sector data and information.

 Epsure -Safe and Aporopriate Conditions of confinement:

 The principal and most specific responsibility for OJIDP remains assuring the continued
               of
 improvement conditions of confinement for juveniles in the system to assure that detention
 does not undermine rehabilitation or constitute tmdue punishment OJJDP has pioneered the
 development of a system of measures and training for detention staff and management that has
 Jed to significant cost savings, improved safety for both children and guards, and better outcomes
for programs conducted within the institution. This investment has been substantial and
continues to pay significant benefits to the field generally and detention facilities that use this
program, in particular. Accordingly. to assist in the continued use of the program and build
sustainability without continued federal government funding and award will be inade to:

     I. GMS Dumber, 2007-S1070-MA-JL. Council or Juvenile Correctional
         Administraton, Inc., 1.5 million dollars13 years (score 94%). Will work with state
        correctional leaders, facility managers and staff as well as juvenile justice partner
        organizations to continue to expand Perfonnance Based Standards (PbS) participation
        to all correctional and detention facilities nationwide. This application is the onJy and
        highest scoringjuvcnile corrections operations and management program within this
        solicitation.




                                                5




                                                    74
"   .,




           Targeted Efforts Toward Foster Care Youth (among {he most vulnerable who come in contact
           with the Juvenile Justice System};

            This priority ~ focuses on the need to address fosler care youth, who are among the most
           vulnerable juvemles who come in contact with the juvenile justice system. Research hIS shown
           that a significant percentage of incarcerated individuals have a history of living in fOSier Cll.re
           homes. There is a need in the juvenile justice system to reach out to foster care youth and help
           them to successfully transition into adulthood, and thereby, decreasing the chances of these
           youth engaging in criminal activity.

               I. GMS number. 2007·.51603·NY-JL, Fund for the City of New York/Center for Court
                   Innovadon. $509,00014 years (score 85%). Program will improve outcomes for youth
                   who are leaving foster care due to reaching the age of maturity by implementing Passport
                   to Adulthood. a guide and toolkit for judges published in April 2007. The Center for
                  Court Innovation will work with the Permanent Judicial Commission on Justice for
                  Children, in a minimum of five national sites in multiple states and NCJFCI to apply the
                  Passport methodology in 30-40 percent of adolescent caseJoads in participating
                 j urisdictions. This application was the highest rated submission addressing the
                  integration of the dependency and delinquency court systems.



          SUMMARY

         OJJDP recommends you approve 10 appliC8ti~ns totaling $8,650,900 for funding.

         APPROVED:                                             DISAPPROVED




         ·R~8~
           e~ofield~                                          Regina B. Schofield
         ASSistant Attorney General      .                    Assistant Attorney General
         Office of Justice Programs                           Office of Justice Programs


     Attachment

     CC: Michele DeKonty, OJJDP
         Marilyn Roberts. OJJDP
         Nancy Ayers, OJJDP

                                                         6




                                                             75
                                                                                                    APPENDIX 7

 ASSOCIATE ATTORNEY GENERAL AWARD
       DOCUMENTATION POLICY

                                                   U. S. Department of J ustice

                                                   Office of the Associate Attorney General




                                                   W..... ~D.C2t)jJ()


                                                    May 28, 2008




MEMORANDUM TO:               Mr. Jeffrey L. Sedgwick
                             Acting Assistant Attorney General, Office of Justice Programs

                             Ms. Cynthia Dyer
                             Director, Office on Violence Against Women

                             Mr. Carl R. Peed
                             Director, COPS Office

FROM:                        Mr. Kevin 1. Q'CoIUlor    (,...:1J
                             Associate Attorney General

SUBJECT:                      Documentation of Discretionary Award Recommendations and
                              Decisions

       It is critical that, in the proo::ess of determining which organi2ations will =ive grant
doUars, those decisions be clearly documented for the record so as to avoid any misconceptions
or misrepresentations in the future.

        As a result, beginning in fiscal year 2008, all discretionary funding recommendations and
decisions should be documented as described below. These requirements represent a m.inimum
standard; components may choose to add others as they establish or refme their grant policies. It
is an internal component decision as to how to implement the requirements of this memo.

        All final approved award recommendation memoranda for grant programs undergoing
external or intemai peer reviews must include the following:

        •      A list of applications received to include the lowest scoring application to be
               funded and every application scoring higher, regardless of whether it was funded.
               This list may be divided into categories and subcategories iftbey were published
               in the solicitation.

        •      A brief explanation as to why an application on the above list was not funded.

      All discretionary recommendations made absent a peer review process must be
documented and dearly explain the choices made, the reasons for the choices, and the policy




                                                 76
considerations on which the decisions were based. An otherwise Wlinfonned reader should be
able to Wlderstand the process used and the final decisions made.

        All final award decisions must be documented as required by this memorandum,
including any changes made as a result of discussions between those recommending granlS and
the decision maker. Such changes in the fInal approved award decision memorandum must
reflect who made the decision to vary from a recommendation memo and his or her reasons for it.

ce:    Director, Bureau of Justice Assistance
       Administrator, Office of Juvenile Justice and Delinquency Prevention
       Director, Office for Victims of Crime
       Director, Bureau of Justice Statistics
       Director, National Institute of Justice
       Director, SMART Office
       Director, Community Capacity Development Office




                                              -2-




                                               77
                                                                                          APPENDIX 8

          OJP RESPONSE TO THE DRAFT REPORT

                                                      u.s. Department of Justice
                                                      Office of Justice Programs

                                                      Office of the Assistant Attorney General




MEMORANDUM TO:                Glenn A. Fine
                              Inspector General
                              United States Department of Justice

THROUGH:                      Raymond 1. Beaudet
                              Assistant Inspector General for Audit
                              Office of the Inspector General
                              United States Department of Justice

FROM:                         Laurie O. Robinson     ~
                              Acting Assistant AttorneYaeneral

SUBJECT:                      Response to Office of the Inspector General's Draft Audit Report,
                              Procedures Used By the Office ofJuvenile Justice and
                              Delinquency Prevention to Award Discretionary Grants in
                              Fiscal Year 2007

This memorandum provides a response to the recommendations directed to the Office of Justice
Programs (OJP) included in the Office of the Inspector General's (~IG's) draft audit report
enti tled, Procedures Used By the Office ofJuvenile Justice and Delinquency PreventiQn 10
Award Discretionary Grants in Fiscal Year 2007.

The draft audit report contains nine recommendations and $ 154,684 in funds to be put to a better
usc. For ease of review, the draft audi t report recommendations are restated in bold and arc
followed by OJP's responsc.

1. Implement a policy to ensure that award decision makers, including the Assistant
   Attorney General for OJP and the Office of Juvenile Justice and Delinquency
   Prevention (OJJDP) Administrator, maintain records supporting their selections or
   approvals of OJJDP invitational awards.

   The Office of Justice Programs agrees with this recommendation. As notcd in Appendix 7 of
   the draft report, on May 28, 2008, the u.s. Department of Justice (D01), Office of the
   Associate Attorney General issued a memorandum to 001 grant making components
   requiring that, beginning in fiscal year (FY) 2008, documentation be maintained to support
   all discretionary funding recommendations and dccisions. The documentation required to be
   maintained must clearly explain the choices made, the reasons for the choices, and the policy
   consideration on which the decisions were based. Since that time, the OJP's bureaus and




                                                78
   program offices have maintained records supporting their selection decision. Additionally,
   on March 10, 2009, the OJP Acting Assistant Attorney General issued a memorandum to the
   OJP's bureaus and program offices to continue the practice of documenting all discretionary
   funding recommendations and decisions as set forth in the May 28, 2008 memorandum.
   Finally, by September 30, 2009, the Office of Juvenile Justice and Delinquency Prevention
   (OJJDP) will develop and implement an internal guidance manual which will include
   procedures to ensure that documentation supporting OJJDP's selections or approval of award
   decisions is maintained.

2. Specify how each OJJDP award recipient obtained its award, wbether by earmark or
   other congressional request, invitation, continuation, or open competition, when
   announcing program award winners on its press releases or websites.

   The Office of Justice Prognuns agrees with this recommendation. Effectively immediately,
   the OJP will include language on its press releases or websites announcing how each OJJDP
   award recipient obtained its award, whether by eannark or other congressional request,
   invitation, continuation, or open competition.

3. Require OJJDP to establisb a minimum length of time tbat solicitations remain open
   for applicants to submit proposals for competitive awards.

   The Office of Justice Programs agrees with this recommendation. The Office of Justice
   Programs and OJJDP will establish a minimum length of time that solicitations will remain
   open for applicants to submit proposals for competitive awards. Once the minimum length of
   time is established, OJJDP will ensure that any remaining FY 2009 awards and all future
   awards comply with the minimum established.

4. Require OJJDP to enhance its solicitation development procedures by drafting and
   approving solicitations throughout the rlScal year so that solicitations allow applicants a
   reasonable amount of time to apply for competitive awards.

   The Office of Justice Programs agrees with this recommendation. The Office of Justice
   Programs uses a grant forecaster tool, which allows for the planning and tracking of major
   milestones in the grant award process. Timelines for each program solicitation are monitored
   to ensure tasks (i.e., release of solicitations, peer reviews, financial clearance) are achieved
   within specified timeframes. By September 30, 2009, OJJDP will develop and implement
   procedures for its internal guidance manual that will ensure solicitations are drafted and
   approved throughout the fiscal year so that solicitations allow applicants a reasonable amount
   oftirne to apply for competitive awards.




                                                2


                                                79
5. Require OJJDP to document the reasons for extending solicitation deadlines and
   announce any deadline extension publicly so that all potential appliunts may be
   informed of changed deadlines.

   The Office of Justice Programs agrees with this recommendation. Currently, the OJP
   announces solicitations on the OJP website, www.ojp.usdoj.gov, or at www.grants.gov. For
   any solicitation deadline extended in FY 2009, OJJDP will ensure that the deadline extension
   is publicly announced. Additionally, OJJDP will include appropriate procedures in its
   internal guidance manual that is being developed to ensure that all future solicitation
   deadlines are publicly announced.

6. Deobligatc S154,684 from OJJDP's Juvenile Justice Resource Center agreement, OJP
   agreemcnt number 2003-BF-028, as funds to be put to a better use.

   The Office of Justice Programs agrees with the recommendation. By June 30, 2009, the OJP
   will deobligate the $154,684 remaining balance from OJJOP's Juvenile Justice Resource
   Center agreement, OJP agreement number 2003-BF-028.

7. Ensure that OJJDP implement peer review protocols for its employces and contractors
   to follow that: (1) require formal orientation caUs so that peer reviewers are aware of
   solicitation requirements before conducting peer reviews; (2) include consensus calls to
   discuss and mediate disparate peer review results; and (3) require panels to include at
   least three peer reviewers.

   The Office of Justice Programs agrees with the recommendation. The OJP Grant Application
   Peer Review Procedure Manual (Manual), issued in July 2008, outlines the roles,
   responsibilities, and practices to be followed by all individuals involved in the OJP grant
   application peer review process. The actions noted above for this recommendation are
   addressed in the July 2008 Manual. By September 30, 2009, OJJDP will include procedures
   in its internal guidance manual to ensure that peer review protocols for its employees and
   contractors are followed and are in accordance with the OJP Grant Application Peer Review
   Procedure Manual.

8. Require OJJDP to augment and use its basic minimum requirements cheddist to
   identify and cxclude applications that fail to meet the purpose and scope of the
   solicitation.

   The Office of Justice Programs agrees with this recommendation. Effective immediately, the
   OJJDP will augment its basic minimum requirements checklist to ensure that applications
   that fail to meet the purpose and scope of the solicitation are excluded before the applications
   are sent for peer review. Additionally, OJJOP will include a copy of the revised basic
   minimum requirements checklist in its internal guidance manual currently being developed.



                                                3


                                               80
9. Require tbat OJJDP attacb a copy oftbe program solicitation wben it submits a
   recommendation memorandum for approval to the Assistant Attorney General.

      The Office of Justice Programs agrees with this reconunendation. Effective immediately,
      OJJDP wiJI issue guidance to OJJDP program managers to require that a copy of the program
      solicitation be included when a reconunendation memorandum for approval is submitted 10
      the Assistant Attorney General.

Thank you for your continued cooperation. If you have any questions regarding this response,
please contact Leroya Johnson, Deputy Director oflhe Audit and Review Division, Office of
Audit, Assessment, and Management, on (202) 514~0692.

cc:      Beth McGarry
         Deputy Assistant Attorney General
          for Operations and Management

         JeffSlowikowski
         Acting Administrator
         Office of Juvenile Justice and Delinquency Prevention

         Maureen A. Henneberg
         Director
         Office of Audit, Assessment, and Management

         Marcia K. Paull
         Chief Financial Officer

         Phillip R. Merkle
         Director
         Office of Administration

         LeToya A. Johnson
         Deputy Director, Audit and Review Division
         Office of Audit, Assessment, and Management

         Richard A. Theis
         Assistant Director, Audit Liaison Group
         Justice Management Division




                                                   4



                                                81
                                                               APPENDIX 9

            ANALYSIS AND SUMMARY OF ACTIONS
           NECESSARY TO CLOSE THE AUDIT REPORT
      The OIG provided a draft of this audit report to OJP. OJP’s response is
incorporated in Appendix 8 of this final report. The audit report contains
nine recommendations and identified $154,684 in funds to be put to a better
use. The following provides the summary of actions necessary to close each
of the recommendations in the report.

  1. Resolved. We recommended that OJP implement a policy to ensure
     that award decision makers, including the Assistant Attorney General
     for OJP and the OJJDP Administrator, maintain records supporting their
     selections or approvals of OJJDP invitational awards. OJP agreed and
     stated that it has implemented the requirements of the Associate
     Attorney General’s May 2008 memorandum requiring that, beginning
     in FY 2008, documentation be maintained to support all discretionary
     funding recommendations and decisions. As part of its response, OJP
     provided a memorandum, dated March 10, 2009, from OJP’s Acting
     Assistant Attorney General to OJP bureaus and program offices
     directing them to continue documenting all discretionary funding
     recommendations and decisions as set forth in the May 2008
     memorandum. Further, by September 30, 2009, OJJDP will develop
     and implement an internal guidance manual that will include
     procedures for supporting and maintaining evidence of its selections or
     approval of award decisions. This recommendation can be closed
     when OJJDP provides us its FY 2008 and 2009 discretionary funding
     recommendations and decisions explaining the award selections made,
     the reasons for the selections, and the policy consideration on which
     the selections were based, as well as its updated guidance manual.

  2. Resolved. We recommended that OJJDP specify how each award
     recipient obtained its award, whether by earmark or other
     congressional request, invitation, continuation, or open competition,
     when announcing program award winners on its press releases or
     websites. OJP agreed with this recommendation and stated that it will
     include language on its press releases or websites announcing how
     each OJJDP award recipient obtained its award, whether by earmark or
     other congressional request, invitation, continuation, or open
     competition. Although not mentioned in its response, OJJDP should
     add this new requirement to its updated guidance manual. This
     recommendation can be closed when we review OJJDP’s FY 2009
     award announcements and its updated internal guidance manual.

                                     82
3. Resolved. We recommended that OJJDP establish a minimum length
   of time that solicitations remain open for applicants to submit
   proposals for competitive awards. OJP agreed with this
   recommendation and said it will establish a minimum length of time
   that solicitations will remain open for applicants to submit proposals
   for competitive awards. OJP also stated that once the minimum length
   of time is established, OJJDP will ensure that any remaining FY 2009
   awards and all future awards comply with the procedures. This
   recommendation can be closed when OJP provides us a copy of the
   policy that establishes a minimum length of time for solicitations to
   remain open for competitive awards.

4. Resolved. We recommended that OJJDP enhance its solicitation
   development procedures by drafting and approving solicitations
   throughout the fiscal year so that applicants will have a reasonable
   amount of time to apply for competitive awards once solicitations are
   formally announced. OJP agreed with this recommendation and stated
   that by September 30, 2009, OJJDP will develop and implement
   procedures for its internal guidance manual that will ensure
   solicitations are drafted and approved throughout the fiscal year so
   that solicitations allow applicants a reasonable amount of time to apply
   for competitive awards. This recommendation can be closed when we
   review OJJDP’s updated internal guidance manual.

5. Resolved. We recommended that OJJDP document the reasons for
   extending solicitation deadlines and announce any deadline extension
   publicly so that all potential applicants may be informed of the
   changed deadlines. OJP agreed with this recommendation and stated
   that for any solicitation deadline extended in FY 2009, OJJDP will
   ensure that the deadline extension is publicly announced. Additionally,
   OJJDP will add procedures to its internal guidance manual to ensure
   that all future solicitation deadlines are publicly announced. This
   recommendation can be closed when we review OJJDP’s updated
   internal guidance manual.

6. Resolved. We recommended that OJP deobligate $154,684 from
   OJJDP’s Juvenile Justice Resource Center agreement, OJP agreement
   number 2003-BF-028, as funds to be put to a better use. OJP agreed
   with this recommendation and said it will deobligate the $154,684
   remaining balance from OJJDP’s Juvenile Justice Resource Center
   agreement, OJP agreement number 2003-BF-028 by June 30, 2009.
   This recommendation can be closed when we review evidence of the
   deobligation.

                                  83
7. Resolved. We recommended that OJJDP implement peer review
   protocols for its employees and contractors to follow that: (1) require
   formal orientation calls so that peer reviewers are aware of solicitation
   requirements before conducting peer reviews; (2) include consensus
   calls to discuss and mediate disparate peer review results; and
   (3) require panels to include at least three peer reviewers. OJP agreed
   with the recommendation and stated that its OJP Grant Application
   Peer Review Procedure Manual (Manual), issued in July 2008, outlines
   the roles, responsibilities, and practices to be followed by all
   individuals involved in the OJP grant application peer review process.
   In addition, OJP said that by September 30, 2009, OJJDP will include
   procedures in its internal guidance manual to ensure that its
   employees and contractors follow the OJP Grant Application Peer
   Review Procedure Manual. This recommendation can be closed when
   we review OJJDP’s updated internal guidance manual.

8. Resolved. We recommended that OJJDP augment and use its basic
   minimum requirements checklist to identify and exclude applications
   that fail to meet the purpose and scope of the solicitation. OJP agreed
   with this recommendation and said it will augment OJJDP’s basic
   minimum requirements checklist to exclude applications that fail to
   meet the purpose and scope of the solicitation before the applications
   are sent for peer review. Additionally, OJJDP will include a copy of the
   revised basic minimum requirements checklist in its internal guidance
   manual. This recommendation can be closed when we review OJJDP’s
   updated internal guidance manual.

9. Resolved. We recommended that OJP require that OJJDP attach a
   copy of the program solicitation when it submits a recommendation
   memorandum for approval to the Assistant Attorney General. OJP
   agreed with this recommendation and will require OJJDP to include a
   copy of the solicitation when it submits recommendation memoranda
   to the Assistant Attorney General. This recommendation can be closed
   when we review OJP’s guidance to OJJDP.




                                   84
